<html>
<title> - THE GOLDMAN ACT TO RETURN ABDUCTED. AMERICAN CHILDREN: REVIEWING OBAMA. ADMINISTRATION IMPLEMENTATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   THE GOLDMAN ACT TO RETURN ABDUCTED
                   AMERICAN CHILDREN: REVIEWING OBAMA
                     ADMINISTRATION IMPLEMENTATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2015

                               __________

                           Serial No. 114-126

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                    U.S. GOVERNMENT PUBLISHING OFFICE
93-916PDF                 WASHINGTON : 2016                    
                      
_________________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96f1e6f9d6f5e3e5e2fef3fae6b8f5f9fbb8">[email&#160;protected]</a>  
                    
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Susan S. Jacobs, Special Advisor for Children's 
  Issues, Bureau of Consular Affairs, U.S. Department of State...     7
Ms. Bindu Philips (mother of abducted children to India).........    38
Mr. Jeffery Morehouse, executive director, BAC Home (father of 
  abducted child to Japan).......................................    47
Mr. Devon M. Davenport (father of abducted child to Brazil)......    55
Mr. Scott Sawyer, vice president of operations, Global Future 
  (father of abducted child to Japan)............................    64

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Susan S. Jacobs: Prepared statement................    10
Ms. Bindu Philips: Prepared statement............................    42
Mr. Jeffery Morehouse: Prepared statement........................    50
Mr. Devon M. Davenport: Prepared statement.......................    59
Mr. Scott Sawyer: Prepared statement.............................    68

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement of Scott Sawyer......................................    80
  Statement of Robert Makielski..................................    88
  Statement of Keith White.......................................    90

 
                   THE GOLDMAN ACT TO RETURN ABDUCTED.
                   AMERICAN CHILDREN: REVIEWING OBAMA.
                     ADMINISTRATION IMPLEMENTATION

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order.
    Let me begin by thanking Ambassador Jacobs and all of our 
distinguished witnesses and guests for being here today, 
especially the left-behind parents that I see in the audience 
who are joining us this afternoon to continue to increase 
attention on international parental child abduction, whose 
victims include primarily children denied the love and 
attention of one of their parents, and parents cut off from 
their children that they love.
    Every year, by some estimates, approximately 1,000 American 
children are unlawfully removed from their homes by one of 
their parents and taken across international borders. Less than 
half of these children ever come home. Most of the left-behind 
parents in the audience today have not seen their children in 
years and know all too well the financial, legal, cultural, and 
linguistic obstacles to bringing their children home from a 
foreign country.
    Many of you have already been through a U.S. judicial 
proceeding prior to the abduction, and the courts have settled 
custody and visitation only to have a kidnapping spouse defy a 
court order. Others of you were caught completely by surprise 
when a spouse's vacation turned into an abduction, a phone call 
in the middle of the night telling you that you will never see 
your child again.
    Your suffering is exponentially compounded by knowledge of 
the pain caused to your child by the separation. Child 
abduction is child abuse. Parentally abducted children are at 
risk of serious emotional and psychological problems and may 
experience anxiety, eating problems, nightmares, mood swings, 
sleep disturbances, aggressive behavior, resentment, guilt, and 
fearfulness. These young victims, like their left-behind 
parents, are American citizens who need the help of their 
Government when normal legal processes are unavailable or have 
failed.
    In 1983, the United States ratified the Hague Convention on 
the Civil Aspects of International Child Abduction to try to 
address abduction and access. This Convention created a civil 
framework for a quick return of abducted children and for 
rights of access for left-behind parents. Absent extenuating 
circumstances, the child or children are to be returned within 
6 weeks to his or her country of habitual residence for the 
courts there to decide on custody or to enforce any previous 
custody determinations.
    The Convention has helped return some children, but 
implementation has been unpredictable and spotty at best. 
Susceptible to abuse by taking parents or judges who either 
don't understand their obligations under the Convention or are 
unwilling to abide by them, the Convention has too often been 
stretched to provide cover for the abduction rather than the 
recovery of the child.
    Some Hague Convention parties are simply not enforcing 
legitimate return orders. The State Department's 2014 Hague 
Convention compliance report highlights four countries--Brazil, 
Mexico, Romania, and Ukraine--that habitually fail to enforce 
return orders. Other countries--Costa Rica, Guatemala, 
Honduras, and The Bahamas--are non-compliant with the 
Convention.
    In other words, abducted American children are not coming 
home from these countries, and so many other countries where 
the Convention operates weakly or with which the United States 
has no bilateral agreement of any kind.
    To give one more example, Jeffery Morehouse, a left-behind 
parent who will testify today, will say that there have been 
400 cases of U.S. children kidnapped to Japan to 1994. We do 
not know of a single case in which the Government of Japan has 
issued and enforced an order for the return of an abducted 
child to the United States. That is unconscionable. And I must 
emphasize that since they have signed the Hague Convention, 
Japan's efforts have been breathtakingly unresponsive, 
especially for abductions that occurred prior to their 
ratification of the Hague Convention.
    Mr. Morehouse will testify that 1 year ago, next week, at 
the very moment Japan acceded to the Hague Abduction 
Convention, parents joined us to hand deliver 30 Article 21 
access applications. I would note parenthetically I joined 
those parents at the Japanese Embassy. They were unbelievably 
respectful and disciplined and very, very cordial, and yet 
very, very determined. None of the back-home parents, however, 
have received access to their kidnapped children. That is 
almost a year ago next week.
    Japan's implementation of the Hague Abduction Convention--
Mr. Morehouse will go on to say--is an abysmal failure. 
Sanctions under the Goldman Act will provide some of the 
necessary public pressures on Japan to create change to this 
ongoing human and family rights crisis.
    Again, the status quo is simply not acceptable. Over the 
last 5 years, many of you who are here today helped me and my 
staff write and pass through the Congress the Sean and David 
Goldman International Child Abduction Prevention and Return 
Act, simply known as the Goldman Act. Today's hearing occurs 
more than 7 months after the Goldman Act became law and gives 
us an opportunity to hear from the State Department and parents 
about whether the bill's key provisions are being implemented 
according to the law.
    A brief refresher on Sean and David, David Goldman spent 
over five agonizing years trying to legally rescue his son Sean 
from abduction to Brazil, which is a signatory nation, like the 
U.S., to the Hague Abduction Convention. Despite Mr. Goldman's 
airtight case that demonstrated an egregious example of both 
child abduction and wrongful retention, the Hague Treaty was 
unavailing and the outcomes in the Brazilian courts proved 
mostly infuriating and firm and ineffective.
    David Goldman waged his case by the book and won judgments 
in New Jersey courts, yet both Sean and David were made to 
suffer emotional pain for over half a decade as one delaying 
ploy after another was employed by the abducting party. In the 
end, because of a father's abiding love for his son, and an 
indomitable will, like so many of you here today who have 
suffered so much, the Goldmans today are united and happy, 
unlike you who still are separated.
    To underscore, the Goldman Act was not intended to simply 
reform the system, but to bring about a fundamental sea-change 
in U.S. diplomacy, so that the State Department officials would 
see themselves as advocates for the return of abducted American 
children.
    Now, under the Goldman Act, when a country fails to 
appropriately address an abduction case pending for more than 
12 months, the law requires the Secretary of State to take 
action. When a country has more than 30 percent of its U.S. 
cases pending for more than a year, the law requires the 
Secretary of State to designate the country as non-compliant in 
the annual report and take action.
    The Goldman Act specifically lists the increasingly 
escalating actions that Congress has in mind, from a demarche 
or protest through diplomatic channels to a public condemnation 
to a delay or cancellation of one or more bilateral visits, and 
even withdrawal, limitation, or suspension of foreign 
assistance, including non-humanitarian aid and including 
security assistance to the central governmental authority of a 
country.
    These are serious sanctions. They must be seriously applied 
by a country that takes parental child abduction seriously. We 
may also request extradition, where appropriate.
    If these measures sound pointed, it is because they are 
intended to focus the designation country on quick and accurate 
resolution to abduction and access cases, and we hope to find 
out today from Ambassador Jacobs how these tools are being used 
and with what frequency.
    The Goldman Act was written to cover countries that have 
signed the Hague Convention, such as Brazil, and countries that 
have not signed the Convention, such as India, and countries 
that have a mix of open abduction cases from before and after 
signing the Hague Convention, such as Japan.
    In 2013, India was the number 3 destination in the world 
for parents who abducted from the United States. Currently, 
there are 64 known open abduction and denial of access cases 
involving India, and yet the United States does not have any 
sort of resolution mechanism to my knowledge in India or with 
India. Moms and Dads are left in the United States. They are 
forced to enter a foreign court system known for its incessant 
appeals and multi-year delays and even mega-intimidation.
    But now the Goldman Act applies. India will now face real 
penalties for any case that has been pending for more than 1 
year and will be named and shamed in the State Department's 
report. As with the State Department's annual Trafficking In 
Persons Report, there is morally suasive value in simply 
reporting what a country does and some countries will, I am 
sure, respond to such moral pressure.
    Thus, we expect the State Department will apply these 
penalties zealously and work with India on establishing a 
bilateral agreement for the efficient and fair resolution of 
abduction and access cases. If the State Department faithfully 
applies the laws written, it will be in India's best interest 
to come to the negotiating table.
    The same holds true for Japan. Even though Japan recently 
signed the Hague Convention, in the upcoming April report 
Congress expects that Japan will be evaluated not just on its 
handling of new abduction cases after it joined the Hague last 
year, but on its work to resolve all open abduction cases, 
including the 67 cases that I and others have been raising with 
State for the last 5 years.
    Among such cases is that of Michael Elias, who has not seen 
his children, Jade and Michael, since 2008. Michael served as a 
Marine and saw combat in Iraq. His wife, who worked in the 
Japanese Consulate, used documents fraudulently obtained with 
the apparent complicity of the Japanese Consultant personnel to 
kidnap their children then aged four and two in defiance of a 
court order telling Michael on the phone call that there was 
nothing that he could do. She said, ``My country''--that is, 
Japan--``will protect me.'' Her country will protect her, but 
what is our country doing to protect Michael and his children?
    While the State Department has touted Japan's accession to 
the Hague Convention as an accomplishment, Japan has said the 
Convention would only apply in post-ratification cases. As 
Ambassador Jacobs knows, I and several others predicted that 
unless an MOU or other bilateral agreement was concluded with 
Japan, American children and their left-behind parents will be 
left behind in perpetuity.
    I ask my friends at the State Department once again, what 
then is to happen for the parents already suffering from 
abductions prior to ratification? Would they be left behind 
again, this time by their own Government?
    I know Ambassador Jacobs, who is here to testify, as 
recently as February 2014 in her testimony before the Senate 
stated that she would continue to make progress with the 
Japanese Government on resolving existing cases in the spirit 
of the Convention. We will have a chance to ask the Ambassador 
what progress has been made on resolving cases like those of 
Michael Elias, Captain Paul Toland, and so many others who are 
suffering every single day. And I am sure when they wake up in 
the morning it is the first thing they think of.
    The Goldman Act requires accountability for the Japanese 
Government on the abduction cases open at the time when Japan 
signed the Convention. Unless Japan resolves scores of American 
cases before the end of next month, nearly 100 percent of 
abduction cases in Japan will still be unresolved, and the 
Goldman Act penalties will apply.
    The Goldman Act has given the State Department new and very 
powerful tools to bring Japan and other countries not to the 
negotiating table, but the resolution table. The goal is not to 
disrupt relations but to heal the painful rifts caused by 
international child abduction. I look forward to hearing 
testimony on the Department's use of the tools.
    And I would now like to yield to Dr. Bera, serving as 
acting ranking member, for his opening comments.
    Mr. Bera. Thank you, Chairman Smith, and I want to thank 
Ranking Member Bass for as well for calling this important 
hearing to discuss the issue of international child abductions 
and the Goldman Act. I especially want to thank the chairman 
for his tireless effort and work on this issue.
    I also want to thank the witnesses and the left-behind 
parents for your heartfelt testimony today. It, obviously, 
cannot be easy, but it is incredibly important to hear these 
stories.
    As we will hear today, this is a serious issue. 
Approximately 1,000 U.S. children are reported to the State 
Department as victims of international child abduction 
annually. These abductions are devastating to families, 
especially to the children. Many of these children are too 
young to know what is occurring and are isolated from their 
left-behind parent. The left-behind parent has to go through a 
stressful and expensive legal process, and, as we will hear 
today, not always successfully.
    One avenue to pursue in order to combat this issue is to 
push more countries to sign the Hague Convention. This brings 
those nations into a legal framework in which they can resolve 
the issue in a more effective manner. This, however, is not a 
panacea, but it is a good first step.
    In addition, just signing onto the Hague Convention doesn't 
solve the issue if the countries don't adhere to what is in 
there. I am going to implore the State Department to continue 
to push more countries to sign the Hague Convention and 
continue to work on reuniting left-behind parents with their 
children.
    And, again, I just want to commend the chairman for your 
tireless work on this issue.
    Mr. Smith. Thank you, Dr. Bera.
    Mr. Bera. Thank you.
    Mr. Smith. I would like to now yield to Mark Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And, Ambassador 
Jacobs, thank you for being back with us. It is good to have 
you here. You expressed your heart the last time that you were 
here, and I think that was evident, because one of the 
troubling things I think for parents--and I met one parent 
yesterday in the hallway coming between the Capitol and back to 
the offices.
    One of the difficult things for a lot of parents is they 
see other things that the State Department is engaged in, not 
you, but other things that the State Department, as a whole, is 
engaged in. And what they have come to the realization, or at 
least the belief, is that it is not a priority for the State 
Department to return these children. And because of that, it is 
very difficult, as a dad, because you empathize with just the 
thought of not being able to visit or see your children, that 
priority.
    So I am looking forward to hearing from you today on the 
progress we have made since the last hearing where we had a 
chance to hear a little bit from your heart.
    But I want to put it in the context, you know, when we see 
the State Department, when we see five GTMO prisoners being 
traded for a potential deserter, and we see that kind of 
priority from the administration and we don't see progress 
here.
    What happens is there is this balance that goes out, and I 
am not trying to be critical of that decision or of your 
agency. I am just saying there is a natural assumption that 
says, well, if they would make the same priority for my son or 
daughter, I would get to see them.
    And so I hope that we hear some of that from you today. I 
do appreciate you coming back and the emphasis that you put on 
it. And I will yield back to the chairman.
    Mr. Smith. Thank you very much, Mr. Meadows.
    I would like to yield to Ms. Walorski, who has been working 
tenaciously on a case of one of her constituents out of Cyprus. 
Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman. I am grateful for 
your efforts and for the help that you have given me and remain 
grateful. I am grateful I am allowed to come as a non-member.
    The Honorable Ambassador, I actually came to seek your 
help. And I really, in the short amount of time in an opening 
statement, just want to familiarize with a case that I am 
working on in the State of Indiana. I have worked on this for 3 
years. The case has been active for five. And I know this is 
small, but forgive me, this actually just came from Cyprus.
    These are my constituents. This is Marla Smith-
Theocharides, and her kids were kidnapped in Cyprus. And there 
is domestic problems in my district in Indiana. This couple was 
divorced. We have been working through every single legal 
channel there has been trying to secure the release of these 
kids.
    And I literally came here today, and I am grateful to this 
chairman, I was so thrilled to hear that the Goldman bill 
passed and that there maybe was some help for people in my 
district, because, you know, I look at this, and you have done 
phenomenal work on this. I am here in my role, you know, as a 
Congresswoman representing these kids and this mother. I am 
also here as a fellow advocate on domestic violence and the 
things that we have all worked on our whole lives.
    But I am appealing to you in the position that I have to 
say we need help. We can't move the Cypriot Government. We have 
used every law that we can. They are completely ignoring it. 
They are denying any kind of help for this woman and these 
kids. And it is an honor for me to actually just be able to sit 
here and have engaged in a conversation with you just to try to 
get your help, because you know what?
    And, you know, my point earlier to you--and, again, for the 
record, is, you know, we are--I am not a believer in domestic 
violence. I have fought domestic violence my entire life, all 
over the globe, not just my district but in places like Eastern 
Europe and Romania where my husband and I were missionaries.
    And back to the chairman's point, these are American kids. 
This is a mother of two kids who has lost access to these kids, 
has no help whatsoever from the Government that she is trying 
to comply with. We have gone through every channel possible, 
and there is police reports filed of this estranged husband 
coming back, perpetrating violence on her, there is violence 
being perpetrated on these kids, and they are American 
citizens.
    And I just would implore you and am grateful to you, so 
thankful that you are here today, thankful that I am allowed 
the opportunity to make this case, but just wanted to make you 
aware of it. And I am definitely going to follow up, but just 
asking for your help on behalf of these constituents in the 
State of Indiana.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much.
    I would like to now introduce our distinguished Ambassador, 
Susan Jacobs, currently serving as Special Advisor in the 
Office of Children's Issues at the State Department.
    Ambassador Jacobs has a long and distinguished career in 
the Foreign Service, in which she served around the world, 
including in Papua New Guinea, where she served as U.S. 
Ambassador. She has also held a number of senior positions with 
the State Department in Washington, including serving as 
liaison to both Congress and the Department of Homeland 
Security.
    Ambassador Jacobs, please proceed.

STATEMENT OF THE HONORABLE SUSAN S. JACOBS, SPECIAL ADVISOR FOR 
CHILDREN'S ISSUES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Jacobs. Thank you very much. I am going to put 
on my glasses, so I can see.
    Chairman Smith, Acting Ranking Member Bera, and 
distinguished members of the subcommittee and their guests, 
thank you for the opportunity to address you again regarding 
international parental child abduction, or IPCA, and the 
implementation of the Sean and David Goldman International 
Child Abduction Prevention and Return Act, or ICAPRA.
    I ask that my full written statement be entered into the 
record.
    Mr. Smith. Without objection, so ordered.
    Ambassador Jacobs. First, I want to say to the families 
that we really feel for you, that your pain is our pain, and we 
really are working very hard to resolve these cases with all 
the resources that we have available. I want you to believe 
that because it is the truth.
    In that regard, ICAPRA represents a joint effort by the 
Congress and the executive branches both to resolve these 
difficult and painful abduction cases and to prevent their 
occurrence.
    I would like to speak about the steps that the Department 
of State has taken to implement ICAPRA in the past 7 months. A 
team of over 80 dedicated employees chartered initiatives that 
built on the best practices that we and the parents have 
developed as we work to resolve these cases. The Office of 
Children's Issues, which acts as the U.S. Central Authority 
under the Hague Abduction Convention, helped resolve 781 
international abduction and access cases last year.
    We continually look for ways to improve the service we 
provide to abducted children and left-behind parents. ICAPRA 
provided an opportunity to improve our procedures and increase 
our effectiveness. Many of our initiatives are driven by the 
annual reports, new data requirements, for collecting 
information on all countries. Ours is a work in progress, but 
we have realized improvements in case management and data 
analysis, and after the report is published we welcome your 
feedback.
    We also focus on education and prevention. We regularly 
train offices about abduction issues, and the Department 
instructs its diplomatic missions to engage with host 
governments about the Convention and to promote it through 
public diplomacy.
    We continue to work with the Departments of Justice and 
Homeland Security and the Federal Bureau of Investigation on 
Operation Prevent Departure. I chaired the first interagency 
working group meeting last October, and we are having another 
meeting in April. And we have invited the Department of Defense 
to join our next meeting, so that we can include them in the 
planning that we do on this important issue. We have also met 
with the U.S. Navy Judge Advocate Generals corps and the 
Director of DOD's Office of Legal Policy to provide an overview 
of the law and its impact on the military community.
    Judicial outreach is an essential part of our strategy to 
prevent and resolve abduction cases. We educate the broader 
community of judges in the United States by providing 
information directly to judges hearing a Convention case, and 
we have updated and enhanced information on our Web site. There 
are four U.S. judges who serve on the International Hague 
Network of Judges, and they assist domestic and foreign judges 
to resolve many Convention cases.
    In the past year, U.S. officials, including me, have 
traveled to over 25 countries for bilateral discussions on 
resolving IPCA cases and promoting the Hague Abduction 
Convention. Our diplomatic efforts increase the likelihood that 
our future and current treaty partners will meet their 
responsibilities under the Convention.
    We have begun to identify countries as candidates for 
bilateral arrangements and to evaluate whether non-Convention 
countries have demonstrated patterns of non-compliance as 
defined by the law. Department officials regularly engage with 
foreign governments of non-Convention countries to encourage 
those countries to become parties to the Convention and to 
address pending abduction and access cases.
    One example is our decade-long effort to secure Japan's 
ratification of the Convention, and we are working to improve 
our relationships with the Japanese Central Authority and the 
Japanese Foreign Ministry, so that we can resolve all 
outstanding cases. We continually advocate for left-behind 
parents and support Japan's own development of resources for 
resolving cases.
    The Convention also provides an excellent platform for 
multilateral diplomacy. In 2014, we hosted a regional symposium 
on the Convention in Jordan and participated in regional 
meetings sponsored by the Hague Permanent Bureau in Beijing and 
in Kuala Lumpur. The Kuala Lumpur conference specifically 
addressed the compatibility of the Hague Abduction Convention 
with Sharia law codes and included presentations from several 
predominantly Muslim countries.
    We have made maximum use of a few short months to begin 
implementing ICAPRA's requirements. We are building on a strong 
foundation of good practices. Your support remains essential to 
our success in maintaining IPCA resolution and prevention as 
resources in our bilateral relationships and advocating for 
membership in the Hague Convention. We are committed to 
achieving our shared goals to increase the number of children 
returned to their habitual residence and to create safeguards 
that will minimize the occurrence of international parental 
child abduction.
    Thank you very much for the opportunity to be with you 
today, and I look forward to your questions.
    [The prepared statement of Ambassador Jacobs follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
                              ----------                              

    Mr. Smith. Thank you very much, Madam Ambassador. If I 
could begin, again, in your testimony just a moment ago, you 
talked about how the USCA has assisted in the resolution of 781 
abduction and access cases. Can you tell us how many of those 
cases deemed resolved were actually returns?
    Ambassador Jacobs. I do not have that number, but I can get 
it for you. I mean, because resolved cases to us are returns, 
either voluntary or court ordered or the case has been closed 
either by the parents or because the child has aged out and has 
become a different kind of case for us. It is not that we are 
forgetting about them.
    Mr. Smith. Oh, no. I ask that because even like an aging 
out issue at 16 for Hague countries, for example, what they 
tried and have done to so many of the abducted parents 
globally, including those whose children were taken to Japan, 
David Goldman's case was--they were running the clock on that 
one to try to get Sean to 16. It would be, and I would hope the 
press would take note of this, it is wrong to talk about that 
as resolution without delineating how many of those children 
came home. Could you--maybe someone could----
    Ambassador Jacobs. I am going to----
    Mr. Smith [continuing]. Get that to us before the hearing 
is over?
    Ambassador Jacobs. I can get you that number probably 
tomorrow or Friday.
    Mr. Smith. Any chance of getting it now, you know, somebody 
back at headquarters?
    Ambassador Jacobs. I don't think we have it. I am sorry. I 
didn't know that you were going to go into the numbers.
    Mr. Smith. Well, that is all-important, because the 
headline of 781 resolved cases does sound very efficacious and 
very encouraging. But, again, when you talk about aging out or 
a parent who, after a year, hasn't been in touch with the 
Department, and he or she, the mom or dad, find out that--you 
know, that they have been dropped, we have been very concerned, 
and we hear from the parents that there is some concern about 
dropped cases. I want to know how many came back.
    Ambassador Jacobs. And I am going to get you that number.
    Mr. Smith. And none from Japan, as far as you know, right?
    Ambassador Jacobs. As far as I know, there have been none 
from Japan, but there was a court-ordered return just last 
month.
    Mr. Smith. You know, on the visitation issues, you point 
out, and properly so, as I mentioned in my opening comments 
about how with Japan, even on the access cases, 31 Convention 
access applications, none of those have been honored either, 
and that is--I mean, that is outrageous.
    And I sat in that meeting, and the left-behind parents 
meeting with Japanese officials a year ago next week were like 
the ultimate diplomats. I was boiling listening. You know, they 
were respectful on the other side of that table, but it was 
like, please, you know, I have been in this business for too 
long, 35 years as a Member of Congress. Let us talk resolution. 
And there was talk of endless delay. And now, a year later, 
none of those access cases even have occurred.
    Ambassador Jacobs. I know that it is frustrating, and we 
share your frustration. And these are issues that we continue 
to raise with the Japanese. We talked to them in September. 
There was an International Visitor Leadership Program in 
February, and then another visit from the Foreign Ministry, and 
we have raised these concerns at every one of those meetings, 
and we plan to go back in June. And I talked to Ambassador 
Kennedy yesterday, and she is energized and she is ready to 
launch.
    Mr. Smith. If I could ask you, in terms of the return, if 
you could give us that information for each country.
    Written response received from the Honorable Susan S. Jacobs to 
question asked during the hearing by the Honorable Christopher H. Smith
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Smith. I mean, Japan, India, I mean, it was the NCMEC--
the National Center for Missing and Exploited Children--that 
said the number is 64. Bindu Philips, who will testify, sitting 
right directly behind you, almost 7 years.
    Matter of fact, she not only has had her children 
kidnapped, as Eamon Blanchard, who is a police office who is 
with her today, as the Plainsboro Police have documented, there 
has been one violation of her rights, money was taken, all the 
furniture was cleared out, loans--I mean, it was a very high 
level fraud, in addition to--I mean, she was broke after this 
happened by the abducting father. And back in India she is 
being frustrated beyond words.
    And, as you know, and this goes for Japan, it goes for any 
country, Section 201 makes clear that determination of action 
by the Secretary of State for each abduction or access case 
related to a child whose habitual residence in the U.S. that 
remains pending or is otherwise unresolved on the date that is 
12 months after the date on which the Central Authority in the 
U.S. submits such a case to a foreign government, the Secretary 
shall determine whether the government of such foreign country 
has failed to take appropriate measures and that he is then, as 
expeditiously as practicable, told, admonished, delineated in 
law, to take one or more actions described in Section 202, 
which are the sanctions provisions.
    It seems to me you have a textbook engraved invitation to 
be serious in implementing this law to say, ``Japan, we could 
take any one of these cases.'' Paul Toland, he served in 
Yokohama in the Navy, and he is the only surviving parent, not 
unlike David Goldman, because his wife had passed away. And he, 
like the others, live in agony over the loss of their child. 
She is I think now 11, his little daughter.
    That is a textbook case for us to say, ``Section 201, 
Japan, we are going to use this.'' Because, again, the access 
cases should be a clear suggestion, if one is needed, that 
Japan is not living up to the letter or the spirit of comments 
that have been made, as well as signatories to the Hague 
Convention. In their case, they are excluded and not included 
in its implementation by definition.
    So if you could take back, and maybe respond to it now, 
could you use Section 201 for Bindu Philips or for Paul Toland 
or any of the left-behind parents whose children were abducted 
to Japan?
    Ambassador Jacobs. Absolutely, because we do it now. We 
don't--we have not waited for that year to run. We raise these 
cases constantly, especially with the countries that you have 
named, in an effort to resolve the cases.
    Mr. Smith. Can I respectfully----
    Ambassador Jacobs. Can I tell you that I share your 
frustration.
    Mr. Smith. Good. Thank you. Can I just say, and I really 
believe there needs to be a look at--I mean, there are a number 
of tools in the toolbox in terms of sanctions. Look at the 
sanctions that will have bite. I mean, a demarche is a good 
shot across the bow, but that is all it is, and you have done 
that with Brazil, for example, but I think the next step has to 
be, okay, you have not resolved these cases, and you tweeted 
back in 2011 how you have put together a working group in 
Brazil. Is there any fruit to that effort? Are people coming 
home? Children?
    Ambassador Jacobs. Let me express my frustration with our 
progress with Brazil. I have made six visits to Brazil, and we 
have had one return, and it isn't enough. But we have had a 
breakthrough, and I have been invited to go back and to meet 
with judges to express our frustration, because in Brazil that 
is where the problem is. And we have had--we have invited 
judges up here, we had 10 judges here in September, we are 
putting together another program for judges, and we are looking 
at every way we can--the Ambassador is very engaged.
    We are trying to work with the Brazil Central Authority, a 
very responsive organization, to get the judges to implement 
the Convention the way it is written.
    Mr. Smith. When Secretary Kerry testified on February 25 
before our full committee, I asked him specifically about the 
meeting with Prime Minister Modi by both himself in January, 
and of course the President of the United States, Barack Obama.
    And I asked whether or not child abduction cases had been 
raised, and I am not sure he answered it. And I have deep 
respect for the Secretary, but he said, ``Any time that I visit 
either home or go somewhere we meet at high levels, we raise 
these issues by name.'' I am not sure he raised Bindu's case or 
any of these cases, but my question to you is, it would be nice 
to have clarification on that.
    But in our newfound relationship with the Modi government, 
is this an issue at the top, along with other issues at the 
top? I mean, if we can't speak out for abducted children, 
American children, who will?
    Ambassador Jacobs. It is an issue at the top, and let me 
assure you that----
    Mr. Smith. Did President Obama raise it?
    Ambassador Jacobs. I don't know, because----
    Mr. Smith. Can you get back to us on that for the record?
    Written response received from the Honorable Susan S. Jacobs to 
question asked during the hearing by the Honorable Christopher H. Smith
    Given the high volume of international parental child abduction 
cases from the United States to India, the Department of State 
continues to employ a full range of diplomatic tools to improve 
cooperation on resolving these cases. We continually work with the 
Government of India to identify new avenues of cooperation and to 
request assistance in resolving all cases at all appropriate levels and 
opportunities. We refer you to the White House for questions about the 
President's meeting with Prime Minister Modi.

    Ambassador Jacobs. I am going to be really honest with you. 
I don't know if that information will be given to me. But what 
I can assure you of----
    Mr. Smith. Is that secret?
    Ambassador Jacobs [continuing]. Is that when we learn that 
high level people, including the Secretary and the Under 
Secretaries, are traveling to countries where we have problems 
with abduction cases, we put something into their briefing 
book, so that they will raise this issue. This is----
    Mr. Smith. And I deeply appreciate that, but the question 
is, is it delivered or is it on page 5 of what they--and they 
never get to it?
    Ambassador Jacobs. It is----
    Mr. Smith. I mean, we found that with David Goldman at 
first. It was--you know, we had--there was pickets out in front 
of the White House to try to get a focus when Lula, the 
President of Brazil, was coming, and finally at long last it 
was raised. We are not sure if it was an afterthought or a 
real--I mean, foreign leaders, as we all know, look our foreign 
leader in the eyes and say, ``Is this of high importance, or 
are you just putting a little check in the box?''
    And I would hope--there is nothing secretive as to whether 
or not the meeting with Prime Minister Modi--and this would go 
for the Prime Minister of Japan and any other meeting--this has 
to be front and center, and now sanctions ought to be utilized.
    If we use sanctions--and I made this point when I did the 
Trafficking Victims Protection Act, if you don't use the 
sanctions, this becomes an unimplemented law and a toothless 
piece of legislation. They have to know it is a priority, and 
the meting out of sanctions--and I mean real sanctions, would 
immediately cause them to wake up and you will have tremendous 
successes on your hands with children brought home.
    Ambassador Jacobs. If I might, I can tell you that I have 
already had some successes in just the threat of sanctions 
invoking this law. In recent meetings in Guatemala and 
Honduras, where we have had very little success on abduction 
cases, we got their attention and now there is going to be far 
better cooperation.
    Mr. Smith. That is encouraging, but those are very small 
countries that can be more easily persuaded, to use a 
diplomatic term. ``Intimidated'' might be a better word.
    Ambassador Jacobs. No.
    Mr. Smith. But the big countries, the big countries--Japan, 
India--this has to be far more----
    Ambassador Jacobs. Absolutely. They have--I am planning to 
go to India in May, to Japan in June, and to talk about the 
report. The Indians don't want to be cited, and I do think that 
public shaming is a very good thing for countries that are not 
doing the right thing.
    Mr. Smith. Can we expect India will be on the non-
cooperation list?
    Ambassador Jacobs. We haven't put together the list, but I 
don't think you will be disappointed.
    Mr. Smith. Okay. Also in your testimony you say, ``As we 
execute the new requirement, to inform Members of Congress 
directly of new IPCA cases,'' let me just say the language is 
clear that all cases should be informed. Is there are more 
narrow reading of the text?
    I mean, a new case--I mean, all of the old Japanese cases, 
some of them are 10 years old, it would seem to me--and I have 
asked many Members of Congress, is there anybody in your 
district that you know of? And one after the other, it is a 
blank stare. ``No, nobody has contacted me.'' Are you informing 
all people that their Congressman and two Senators could be 
tremendous advocates for the return of their children, or 
access, or both?
    Ambassador Jacobs. In April, we will begin the notification 
process to Members of Congress. We have had to work through 
other laws to make sure that we are doing the right thing, and 
we will begin doing that in April.
    Mr. Smith. Okay.
    Ambassador Jacobs. And thank you for that question.
    Mr. Smith. Okay. And it will include old and new cases.
    Ambassador Jacobs. It will include----
    Mr. Smith. Not just since----
    Ambassador Jacobs [continuing]. All the cases for which we 
have permission to give them information.
    Mr. Smith. Okay. That is good. So strike that ``new'' word 
in the--Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chair. As usual, this is 
an issue that you have championed for many years. I will share 
with my other colleague there, I remember years ago watching 
the case in Brazil, long before I ever knew I would be coming 
to Congress, and then I get to sit next to the person that 
championed it, so--along with your leadership for many years.
    I just have a couple of questions. I wanted to know if you 
could describe how our Government is engaging in efforts to 
prevent these abductions from taking place in the first place, 
and how our Government measures the effectiveness of programs 
to prevent the abductions. And then, what actions has the State 
Department taken to encourage mediation as an option for 
returning children? Especially to return children from 
countries that are not Hague Convention participants.
    Ambassador Jacobs. Thank you so much for those questions. 
We have a number of programs to protect children from 
abduction, some of them of longer standing than others. All of 
them are really a part of the Operation Prevent Depart. So we 
have for children under the age of 16 a two-parent consent 
rule, which means both parents have to give their permission 
for a child to be issued a passport.
    And we also have a Passport Alert Program where a parent 
who feels their child will be abducted can notify us, and we 
will put an alert in the system so that a passport will not be 
issued unless the parent who put the hold in is notified. And 
it is hard to know what the success rate is, but it is a 
deterrent and it works.
    We also work very closely with Customs and Border 
Protection to prevent departures from the United States. We 
also have the prevention working group that I chair with 
members from Justice, Homeland Security, it will include 
Defense now, and the Federal Bureau of Investigation, and we 
work on new programs.
    This is mandated by the law. It is something that we had 
started doing before, and we do work very closely with law 
enforcement. And I think it is effective. As you know, it is 
easier to prevent the abduction than it is to get a child back.
    Ms. Bass. Right.
    Ambassador Jacobs. And so we need to do everything that we 
can, and we look forward to working with you all on strategies 
that will prevent children from being abducted. I mean, that is 
the big thing that we can do.
    Ms. Bass. And I am wondering if some of the procedures that 
you are describing are new. I have to tell you, while you were 
describing the thing about the passports, there is all of these 
heads behind you shaking no. And so I don't know if that is a 
new procedure.
    Ambassador Jacobs. The two-parent consent rule was 
instituted in 2008.
    Ms. Bass. I see. That is relatively new.
    Ambassador Jacobs. It is new, and it is something that we 
encourage other countries to do.
    Ms. Bass. Have you ever had a situation where you were able 
to--you know, one of the problems with prevention is that it is 
hard to document something that didn't happen, right? But I am 
wondering if you ever had a situation where you were able to 
literally stop it versus--do you understand what I am----
    Ambassador Jacobs. Yes. Absolutely. In a couple of--we 
have--we are fortunate enough to be able to use passport 
agencies, especially in California, to place prevention 
officers, so that--and we also have officers in Europe. So we 
have almost 24-hour coverage where parents can report an 
abduction in progress, and last year we stopped one in San 
Francisco.
    Ms. Bass. Oh. While they were trying to board----
    Ambassador Jacobs. While they were trying to get into 
Canada. They were trying to get on a plane to get into Canada.
    And I am sure you all read about the case at Dulles where a 
mother was trying to take her child to China, and they turned 
the United Airlines flight around.
    Ms. Bass. No. When was that?
    Ambassador Jacobs. The father--I am sure the other 
passengers were annoyed, but we thought it was a great success.
    Ms. Bass. When did that happen?
    Ambassador Jacobs. It happened last fall sometime.
    Ms. Bass. Wow. Okay.
    I yield back, Mr. Chair.
    Ambassador Jacobs. And you asked about mediation.
    Ms. Bass. I did.
    Ambassador Jacobs. We participate in a mediation working 
group that consists of Sharia law countries and non-Sharia law 
countries, and mediation does work, and it is something that we 
suggest to parents. I don't think it is a substitute for the 
legal recourse that is available in the Hague Convention, but 
it is something that parents should try if they think it will 
work.
    Mr. Smith. Thank you very much, Ms. Bass.
    Mr. Meadows.
    Mr. Meadows. Thank you, Ambassador, for being back with us. 
And as I go into this, I want to ask just a couple of questions 
as a follow up of some of the other things that have been 
mentioned. And I guess for me, when we talk about open cases, 
and we talk about the breadth of this problem, is it growing, 
or is that number going down?
    Ambassador Jacobs. It is about the same. Now, you have to 
remember, though, that it is all self-reporting. If somebody 
doesn't notify us about a case, then we are not going to----
    Mr. Meadows. You can't know about it if you are not----
    Ambassador Jacobs [continuing]. We can't----
    Mr. Meadows [continuing]. Notified.
    Ambassador Jacobs. Right.
    Mr. Meadows. But what you are saying is that we have the 
same number of open cases. It has been flat.
    Ambassador Jacobs. I can get you real numbers.
    Mr. Meadows. Which I guess--well, let me ask the logic. If 
it is staying flat, and what is that number? I mean, about what 
are we talking about, how many?
    Ambassador Jacobs. It is about 1,000 cases that are open.
    Mr. Meadows. So if we have about 1,000 cases, and as the 
chairman was talking about, some of those are aging out and 
being closed, so we have new ones coming in and I guess the 
same number going out, that is not necessarily a direct result 
of successes within your department. Is that--I mean, what 
percentage I guess is your actions versus just they are growing 
old or they are closing the case or they worked it out on their 
own?
    Ambassador Jacobs. I would argue that a lot of it is due to 
our actions. I think that membership in the Hague Convention, 
even while it is slow and often frustrating, does provide a 
legal framework and a way to work with countries, both 
bilaterally and multilaterally, to get their attention and to 
get them to enforce the Convention.
    In a lot of countries, like Brazil, we do work with other 
countries to present the same message to the Brazilians that we 
are giving them, and that becomes a strong message. I think 
laws like ICAPRA also help us, and they are--kidnapping is a 
crime in the United States, and I think people often look to a 
civil remedy rather than a criminal remedy, so that if a taking 
parent is found out of compliance with the law and the child is 
returned, they would still be able to visit their child in the 
United States under some circumstances.
    So I think that it is a combination of a lot of things, but 
I think that the Hague Convention remains our best tool for 
helping to ensure the return of abducted children.
    Mr. Meadows. All right. So we have some tools. We have the 
law that the chairman has referred to, we have, you know, a 
department that is committed to this particular issue, we have 
a number of tools that are out there. I am sure you will get to 
hear from Ms. Walorski here in just a few minutes. How do we, 
as Members of Congress, come alongside you to make this a 
priority?
    Because I am very sensitive to the fact that you have got a 
difficult job at the State Department, and there are a number 
of moving parts. And I try to stay out of that as much as I 
can, even though it is a passion. But does it require a few 
Members of Congress getting on the plane and going down? I 
mean, would that be helpful? Or the next trip that you have 
that we come in and we show that it is a priority more than we 
have.
    Ambassador Jacobs. I think it would be great if when you 
all travel that this is one of the points that you raise with 
foreign legislators and others that you meet. I think it is an 
incredibly important issue, and we want to be your partner in 
resolving these cases. So I would welcome that.
    Mr. Meadows. But I will say the other side of that, though, 
Ambassador, is this, that if we had these tools and we never 
plan to use them, then the threats, or their persuasive power 
you might say, becomes a lot less because what happens--a lot 
of these countries don't believe that we ever plan to sanction 
them. They don't believe that we are ever going to cut off 
foreign aid. They don't believe that it is really a priority.
    And let me go a little bit further, because one of the 
concerns I have is that when I talk to people in the State 
Department, regional, bureau, Assistant Secretaries, and people 
with regional--they don't even know that the problem exists, 
you know, or so they claim. So I would love you to respond to 
that.
    Ambassador Jacobs. Well, if they don't, then that is a 
failing on our part, because we have certainly done our best to 
educate them about the importance of this issue.
    Mr. Meadows. All right. So do you meet with them regularly 
and give them a list of priorities in terms of people--you 
know, children that have been abducted? Do you have regular 
meetings with the different regional Assistant Secretaries?
    Ambassador Jacobs. I certainly meet with them as necessary. 
And when there are cases that need to be resolved, I pick up 
the phone and I call them.
    Mr. Meadows. Yes. But if you are not doing that as a part 
of your regular--here is what happens is you pick up the phone, 
and it becomes a priority for that day. And if you are not 
coming back, just like with you getting prepared for this 
hearing, the fact that you are coming back, I assume that you 
did a little bit of prep. I mean, I may be surprised, but it is 
the same kind of thing with the Assistant Secretaries.
    And what I am hearing is is, you know, from a--whether it 
is the Asia Bureau, or wherever it may be, is they are not 
hearing the priority. And so do we have your commitment that 
you are willing to start scheduling those meetings in those 
troubled areas? I am not talking about all over the world, but 
we know where the biggest source of the problem is. And if you 
would have those regular meetings where they say, ``Well, gosh, 
here comes Ambassador Jacobs again. You know, we have got to 
get some''--it makes it a priority. Are you willing to do that?
    Ambassador Jacobs. I certainly am, and we actually have a 
meeting scheduled with the Western Hemisphere countries on 
April 22.
    Mr. Meadows. Okay. Then----
    Ambassador Jacobs. But let me--can I just add one more?
    Mr. Meadows. Certainly.
    Ambassador Jacobs. Our country----
    Mr. Meadows. We are looking for solutions, so you add 
whatever you can add.
    Ambassador Jacobs. Our country officers in Children's 
Issues speak with their counterparts on the desk, the regional 
desk officers, every day. So they know, and this message gets 
carried up. And our Assistant Secretary, our Acting Assistant 
Secretary, speaks out at the meetings that she goes to with the 
Secretary. So this is an issue that everyone is aware of. When 
we know that the Secretary is traveling, we get a point into 
his briefing book on that country.
    Mr. Meadows. But having an awareness--and I am following 
your words--having an awareness and making it a priority are 
two different things. I mean, I have an awareness that my feet 
hurt, but until I do something about it, you know, I mean, and 
that--and I don't want to continue to press you on this. And I 
am----
    Ambassador Jacobs. Okay.
    Mr. Meadows [continuing]. Trying to take off my oversight 
and be kind and compassionate about this, because I do know 
your heart. But I guess what I am saying is, I don't want to 
have another hearing a year from now and us to have a flatline 
in terms of the number of cases.
    Ambassador Jacobs. And I appreciate that. But let me assure 
you that for the Secretary, having been a Senator, he knows how 
important this issue is, as did Secretary Clinton who had also 
been a Senator. And, you know, they truly care about this 
issue. And so the Secretary has made it a priority to resolve 
cases everywhere around the world.
    Mr. Meadows. All right. I have----
    Ambassador Jacobs. And I promise you that we will hold 
those meetings, and we will do it regularly.
    Mr. Meadows. And if you can just give us maybe every 6 
months----
    Ambassador Jacobs. I will give you the highlights.
    Mr. Meadows. Well, if you will just give us a report of who 
you have met with and the highlights, that will help us figure 
out if we need to get other Members of Congress to follow up on 
it. But thank you so much.
    Ambassador Jacobs. Absolutely.
    Mr. Meadows. I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows.
    Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman, again.
    Ambassador Jacobs, Marla, Katerina, and Marcus, again, 
these are my constituents. They are in a desperate situation, 
and I am here again on behalf of them, and in my role as well, 
is basically to ask you in your position--and, yes, I know you 
have done great work, and I know that there is, like you have 
said, 1,000 cases open. These two happen to be my 
responsibility.
    So what is the State Department's overall strategy in 
Cyprus? Is this a trend? Do you see more of this happening? Are 
my two constituents and three constituents the only people 
trapped in this whole kidnapped children, desperate situation, 
violence in another country? What is the overall situation in 
Cyprus that you know of?
    Ambassador Jacobs. I don't know of any case other than 
yours, but I will certainly check. I know that our counsel 
there, Steve Royster, has been very active on your behalf and 
on behalf of the children, and we will continue this pressure. 
And, as I told you when we met before the hearing, I will go to 
Cyprus. My daughter was born there, so I have a special 
affinity for Cyprus. And I will also meet with the Cypriot 
Ambassador here and impress upon him the necessity to resolve 
this case for Mrs. Theocharides.
    Ms. Walorski. I really appreciate it. I am grateful, and 
they are grateful, and I am sure the families are watching 
today.
    And I know that, again, when it comes to how helpless these 
families feel, and for all the families that are in this 
audience today, about how helpless we all feel when--these are 
American citizens. We would not tolerate this kind of violence 
in our country. And when things become desperate like this, I 
am just grateful.
    And I will tell you that Ambassador Steve Royster, although 
I have never met him, has taken my call in the middle of the 
night many times. I look forward to meeting him. He has been an 
incredible help. The State Department overall has been helpful, 
but it just seems like it has just been nothing--in dealing 
with the Cypriot Government, one roadblock after another after 
another after another.
    So in your position of authority, and based on what we are 
talking here today, with this issue of being able to sanction, 
I mean, I look at that as an open door that we really have not 
had before. So I appreciate it.
    And I just have one other question.
    Ambassador Jacobs. Yes, ma'am.
    Ms. Walorski. I have another issue that I just want to 
bring up quickly. It is the Democratic Republic of the Congo. 
On these issues where the President suspended the adoptions, I 
have got also adoptive parents in my district that have a heart 
of gold that have adopted these children. They legally went 
through. They are trapped in the nation. They have shut it 
down. I have dealt with that with Romania before.
    What is the status right now? Is it a Presidential issue? 
Are you working on it? Where are we on this, on the issue of 
the Congo?
    Ambassador Jacobs. I can't tell you how frustrating this 
issue is for me. I went to Congo in December to talk to them 
about this. They promised that there would be an 
interministerial meeting that would make me very happy. The 
government changed 2 days later. The meeting never happened, 
and I am still really unhappy.
    Our Acting Assistant Secretary was there last week. They 
promised the same thing and nothing has happened. We are 
reassessing what we do. We have bent over backwards to meet 
some of their demands to show them how loving families can make 
such a huge difference in the lives of children that are living 
under terrible conditions in foster homes and orphanages in the 
Democratic Republic of the Congo, and we are not getting a lot 
of traction.
    And we have allies in all of the other countries that are 
seeking to help children find permanency. We are hoping that 
they will attend the Special Commission meeting in the Hague in 
June, so that they can hear from all of us together in person, 
that adoption can be a great thing for a child, and especially 
for children who are unable to find permanency and a loving 
family in their own country.
    Ms. Walorski. Well, I will just echo--because I have had 
firsthand experience in the nation of Romania when we were 
there and there was a moratorium on adoptions. And I think it 
is an outrage when there are willing parents, and I think it is 
an outrage as a Government to use children as political pawns 
and tools. We see it all over the world for all kinds of 
different things, but I just would echo I guess your 
frustration as well.
    If there anything--and to my colleague, Mr. Meadows, if 
there is anything we can do as Members of Congress to put 
additional pressure on these nations to be able to comply and 
to not use these kids a political pawns, you know, they sell 
them multiple times, they never release them, they suspend 
them, there is so much gimmickry that goes on, I would just 
appreciate, if there is anything else that we could do to 
assist you, I would welcome it and definitely be an advocate.
    Ambassador Jacobs. Thank you.
    Ms. Walorski. Thank you very much.
    I yield back, Mr. Chairman. Thank you.
    Mr. Smith. Thank you very much, Ms. Walorski.
    Just a few final questions. What is the number right now of 
open abduction cases, and how many children are we talking 
about as of today's date?
    Ambassador Jacobs. You are going to be angry with me, but I 
don't have the number. I am going to get it to you as quickly 
as I can.
    Mr. Smith. Okay. Could anybody behind you maybe get that 
from headquarters, too?
    Ambassador Jacobs. We will get it for you.
    Mr. Smith. Okay. You know, again, Jeffery Morehouse, in his 
testimony, and I do hope if you can't stay to hear it you will 
take it and read it, as well as that of our other distinguished 
witnesses, but he goes through specific cases, including Henrik 
Teton, who--a request for interim access to his children under 
the Hague was ignored by the court and goes--I mean, the 
obstacles that are placed in front of these parents are almost 
insurmountable unless our Government establishes, in my 
opinion, an MOU to finally, at long last, have a mechanism that 
works, that is predictable, that is effective, and does not 
bankrupt the left-behind parent, which many of these offending 
parents know will happen over time because they just can't--
they have run out of money, and their hearts are so broken that 
they collapse with exhaustion.
    Are MOUs being considered? And I have been pushing this. 
You know I went to Japan with Michael Elias' mother, so I went 
with the grandmother of the two children, Jade and Michael, who 
have been abducted. And the whole pushback was no MOU, no MOU. 
You and others have suggested that this wouldn't be helpful.
    We now know that there has been no relief for these parents 
and these children. These are American children, and it seems 
to me that a mechanism that could be invoked to expeditiously 
bring those kids back is--and that goes for India, a non-Hague 
country. If they sign the Hague anytime soon, we will be right 
in that same boat, and Bindu Philips will see 7 years become 8 
years become 9 years become 10 years.
    And, again, I strongly ask you, take her case. Meet with 
her, please. But take her case and use that to invoke Section 
201. You only need one case, and you only need one case from 
the folks who have had their kids abducted to Japan. And then 
implement the sanctions. Until we do sanctions, I do believe, 
respectfully, they will think this is a paper tiger and we are 
just going through the motions rather than being serious about 
this.
    And, again, security aid can be sanctioned. While Japan 
doesn't get a dime, I am sure, of foreign aid because they are 
a very, very mature democracy, and they are a donor of foreign 
aid to refugee causes, another very, very laudable commitment 
by Japan, but they do rely on a security--and, as we know, we 
have had witnesses here--and, of course, Paul Toland, he had 
shinken invoked against him--and I do hope there is something 
we are doing to say. The sole rights over the child, and in 
this case Paul's child, his daughter, is in the hands of a 
grandmother. There is no mother. She has passed, sadly, but she 
has passed. And Paul still now, a decade later, has not been 
able to get his daughter back.
    And I just want to add one other thing. You know, Patrick 
Braden is here. I joined him at Melissa's birthday party; I 
believe she was four at the time. We couldn't even get in to 
see the Japanese leadership or Embassy people at that time. Now 
that is, what, 6 years ago. Every one of these wonderful 
mothers and dads that I meet and you meet, they have put 
through an agonizing process. So an MOU and a prioritization, 
sanctions, and say, ``Look, we are not kidding.''
    The Goldman Act--and I don't call it the acronym you do--it 
is the Goldman Act. You know, once there is more than four 
letters, I usually think, whether it is ``wah-vah'' or 
something else after that, it is better to go with Goldman Act. 
It just seems to me that the time has come.
    And if we invoke sanctions, name the name, you know, put 
them on the non-compliance, and all three of those countries--
Brazil, India, and Japan, and there are others--certainly fit 
the bill for that. It is easy to sanction Honduras, frankly. 
But the countries where there is a superpower status, as we 
have with India and Japan, I mean these are very strong 
countries. That is when you say, ``We speak truth to power.''
    And I implore you to do this. And I hope the report will 
clearly name them as offending countries, non-compliant 
countries, but then take that next step with sanctions, and 
then get the MOUs established, please.
    Ambassador Jacobs. Can I tell you that we have 917 open 
cases as of March 17, 2015.
    Mr. Smith. And that is open abduction cases?
    Ambassador Jacobs. Yes.
    Mr. Smith. Okay.
    Ambassador Jacobs. Abduction and access. Sorry.
    Mr. Smith. Have you gotten word back perhaps on how many of 
the cases cited in your testimony were resolved with a return? 
I mean, just so members here and the press and all, because, 
again, it sounds like a much better number than it is.
    Ambassador Jacobs. We had 260 returns in 2014.
    Mr. Smith. Okay. So about a third, approximately, of the 
cases were returned. The rest were not.
    Ambassador Jacobs. Right. But they might have been access. 
I don't have the numbers on the access.
    Mr. Smith. And none from Japan?
    Ambassador Jacobs. No. None from Japan.
    Mr. Smith. And India?
    Ambassador Jacobs. I don't think so.
    Mr. Smith. And Brazil?
    Ambassador Jacobs. I know there were none from Brazil.
    Mr. Smith. Okay.
    Ambassador Jacobs. Let me----
    Mr. Smith. And the numbers, how many children are we 
talking about with abductions?
    Ambassador Jacobs. I do not have that.
    Mr. Smith. Okay. Please get back to us as soon as you can.
    Ambassador Jacobs. I will.
    Written response received from the Honorable Susan S. Jacobs to 
question asked during the hearing by the Honorable Christopher H. Smith
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ambassador Jacobs. But let me assure you that we will do 
everything we can to resolve all the cases, to help every left-
behind parent. You have my commitment.
    Mr. Smith. Thank you.
    Anybody else have anything to add? No.
    Thank you, Ambassador. Appreciate it. And, again, as you 
leave, I just again will say for the third time, please 
establish those MOUs. The mechanism doesn't exist to----
    Ambassador Jacobs. We intend to approach those governments 
to do that. But remember that they have to be willing to 
negotiate with us. We need willing partners.
    Mr. Smith. Again, I think that is where the sanctions will 
sharpen the mind and they will say----
    Ambassador Jacobs. I hope so.
    Mr. Smith [continuing]. ``Hmm, the Americans mean 
business.'' I remember when we did the trafficking bill. It 
took 3 years to get the Trafficking Victims Protection Act 
enacted into law in 2000, and it took 5 years to get the 
Goldman Act enacted into law.
    I will never forget meeting with members of the Russian 
Duma, and when we told them and showed them the sanctions 
provisions, one of the members who has been outspoken on 
combatting human trafficking in Moscow said, ``Oh, you guys do 
mean business. And will you implement it, though?'' And I said, 
``That remains to be seen. It is an executive branch 
function.''
    But my plea to you is to use the tools in the toolbox, and 
we will get children back, and the custody will be decided at 
the place of habitual residence.
    Ambassador Jacobs. We will implement this law. You have my 
commitment.
    Mr. Smith. Thank you so much.
    Okay. I would like to now welcome our second panel, if I 
could, beginning first with Ms. Bindu Philips, mother of 
abducted children to India, Albert and Alfred, twin boys, who 
are United States citizens and were born in New Jersey in 2000. 
Albert and Alfred lived in New Jersey, just outside of my 
district, prior to their abduction to India by their father, 
who took the family to India on the pretext of a family 
vacation.
    In spite of being granted custody of the children in the 
U.S. by the Superior Court of New Jersey in 2009, Ms. Philips 
is unable to see or communicate with her children. She has been 
seeking justice in the U.S. and in India, to be reunited with 
her precious children, for the last almost 7 years.
    We will then hear from Mr. Jeffery Morehouse, who is the 
sole custodial parent in both the U.S. and Japan of his son, 
who remains kidnapped in Japan. He volunteers much of his time 
as Executive Director of Bring Abducted Children Home, which is 
a nonprofit organization dedicated to the immediate return of 
internationally abducted children being wrongfully detained in 
Japan.
    Through BAC Home, he works to increase public awareness 
through outreach in the general community, on the crisis of 
international parental child abduction, and he believes it is 
important for parents of internationally kidnapped children to 
strategically engage in raising the level of awareness of this 
human and family rights crisis.
    We will then hear from Devon Davenport, who is a research 
scientist from a biopharmaceutical company in North Carolina. 
But, most importantly, he is a left-behind father of Nadia 
Lynn, who was abducted to Brazil by her mother in February 
2009. He filed a Hague return application immediately, which he 
won, and which has withstood appeals in court. But 6 years 
later, Nadia is still in Brazil.
    Although the special appeal at the Superior Court was 
finally rejected earlier this month, the taking parent 
continues to use delay tactics in order to prevent the 
inevitable return of Nadia back to the United States.
    And then we will hear from Mr. Scott Sawyer, who is a 
father of a child kidnapped to Japan in December 2008. In 2009, 
he became an officer of the parents organization Global Future, 
which has successfully, safely, and legally brought five 
kidnapped children back to their lawful homes in the U.S., as 
well as assisted in kidnapping prevention.
    Ms. Philips, if you could----
    Mr. Meadows. Mr. Chairman, if you don't mind, I just--just 
briefly, I would just like to say to each of you thank you for 
being here. And I want to apologize ahead of time; I have got 
to step out for another meeting. It is nothing personal. I will 
be here just for a few minutes. I do have staff here who will 
be monitoring it, taking notes, but I didn't want you to think 
that it was out of a lack of empathy or concern.
    I thank you, Mr. Chairman.
    Mr. Smith. Ms. Philips.

STATEMENT OF MS. BINDU PHILIPS (MOTHER OF ABDUCTED CHILDREN TO 
                             INDIA)

    Ms. Philips. Thank you, Mr. Chairman, and distinguished 
members of the committee. It is my honor and privilege to 
testify before you today, and I thank you for your time to hear 
of my plight.
    My name is Bindu Philips, and it is my ardent hope that my 
story will capture your attention today. While I have held many 
roles in life, none has been more meaningful to me than that of 
motherhood. Fourteen years ago, I was blessed to be the mother 
of twin boys, my precious children, Albert Philip Jacob and 
Alfred William Jacob.
    When my children were born, my ex-husband, Sunil Jacob, and 
I made a joint decision that I would stay home with them and be 
their primary caretaker. I was an active and loving mother in 
every aspect of our children's lives. My children came first in 
everything I did and in every decision I made.
    Tragically, my world, and that of my innocent children, was 
violently disrupted by my ex-husband, Sunil Jacob, in December 
2008 when he orchestrated the kidnapping of the children during 
a vacation to India. I would note that the children, my ex-
husband, and I are American citizens, and the children were 
born in America, which is the only nation they identified with 
as home.
    Sunil Jacob worked in the financial industry and was 
terminated by his employer, Citi Group, late in 2008. My ex-
husband pressed me to agree to a family vacation to India 
during the children's winter break. My ex-husband was both 
physically and emotionally abusive to me, and I feared the 
consequences of refusing him. I had seen the return tickets 
dated January 12, 2009, and I had every reason to believe that 
we would be home in a few weeks to resume our life back in the 
United States. Had I known what would follow, I would have 
never boarded that flight to India.
    On reaching India, I was not only physically and 
emotionally abused by my ex-husband, but also by his parents. I 
was, finally, very cruelly separated from my children with no 
means to communicate with them.
    I could not bear the separation of my children, and on 
learning that my children were admitted to a local school in 
India I approached the principal requesting that I be allowed 
to see my children, and I was granted permission. As soon as my 
husband learned about this, he transferred them to anther 
school and gave the school strict orders that the mother or any 
material relatives should not be allowed to see or communicate 
with the children.
    Unable to communicate with the children, I ultimately 
returned to the United States 4 months later on April 9, 2009. 
I literally came home to an empty house. Our residence in 
Plainsboro was devoid of all furniture and possessions and both 
the cars were gone from the garage. While in India, my ex-
husband had three of his friends strip the entire house of 
everything inside. They took everything, leaving me with not 
even a single photograph of my children.
    He had not paid the mortgage on the Plainsboro home, nor 
the utilities, or the equity line of credit, which he had 
transferred to India, and left me with this additional 
financial burden.
    Heartbroken and impoverished, I had to start from nothing 
and survived initially on the graciousness of good people. My 
neighbors allowed me to move in with them briefly, and a local 
church provided me a car. Shortly thereafter, I found 
employment, secured an apartment, and purchased a car of my 
own.
    Over the last 6 years, I continue to uncover information 
that shows how deceptive my ex-husband, Sunil Jacob, is. The 
investigation reports from the Plainsboro Police show that he 
had planned the move to India as early as March 2008. He had 
communicated his intentions to the principal of the children's 
elementary school, without my knowledge.
    In November 2008, 1 month before the trip to India, Sunil 
Jacob obtained an Indian visa for him and the children, known 
as OCI, Overseas Citizen of India, that would allow him and the 
children to stay for an extended period of time in India, since 
the children are American citizens, and without an OCI visa 
they can stay in India only for 6 months.
    An Indian OCI visa is granted to minor children only after 
the approval of both parents. Sunil Jacob obtained the visas by 
fraudulent means, as I have not signed on any OCI application 
for my children. Sunil Jacob, an American citizen, deceptively 
abducted my American citizen children and is staying in India, 
out of my reach, and that of the Hague Convention, 
indefinitely. Please note, India does not honor dual 
citizenship.
    I also came to know that he has remarried. In 2013, Sunil 
Jacob's family member confirmed with the Plainsboro Police that 
the separation of the children from me was planned well in 
advance.
    Frustrated, but determined, on May 14, 2009, I filed a 
petition with the Superior Court of New Jersey for the custody 
of our children. Sunil Jacob tried to delay the matter by 
arguing that the U.S. did not have jurisdiction to hear the 
case, but the American courts, both the Superior Court and the 
appellate levels, have held that the jurisdiction was indeed 
proper with the Superior Court family part.
    My ex-husband was in contempt of the court order granting 
me parenting time over the children's winter break, although he 
participated in this hearing over the phone. The flight 
information was conveyed to Sunil Jacob. The Honorable Superior 
Court of New Jersey granted me residential and legal custody of 
the children in December 2009. The U.S. court order was served 
to Sunil Jacob by the U.S. Court and the Ministry of Law and 
Justice, New Delhi, India.
    The Plainsboro Police and the FBI have issued arrest 
warrants against Sunil Jacob. Please note, in 2007, while Sunil 
Jacob was working at Citi Group, he was involved in an unknown 
incident at his office that resulted in an FBI inquiry on him. 
His colleague told me when I returned that he had an affair 
with an Indian woman at his office.
    Despite having kidnapped our children, Sunil Jacob filed 
for custody of the children in the Indian courts after the U.S. 
child custody was filed. The case is currently pending at the 
Honorable Supreme Court of India.
    In addition to wrongfully keeping the children from me, 
Sunil Jacob has thwarted every effort I have made to speak to 
our children and let them know I love them. Beyond kidnapping, 
Sunil Jacob continues to file false cases against members of my 
family and me in India and is brainwashing and alienating the 
children from their own mother. He believes that if his 
campaign for harassment becomes too much for me to bear, we 
will back away from the quest for me to regain custody of our 
children. He must learn that this will not happen. He must be 
held accountable for his reprehensive actions.
    My children have lost 6 years of their mother's love and 
care, and I have lost 6 years of my children's childhood that 
neither of us will ever get back.
    Every day I awaken with the heart-wrenching reality that I 
am separated from my children that I love more than anything in 
this world. I have done everything I can think of to do in this 
nightmarish situation, and I will never give up on my children. 
Yet I am here because I can no longer fight the good fight on 
my own. I respectfully request that you, the Members of the 
Congress, help me to make my voice heard in a way that shall be 
meaningful and allow me to be reunited with my children who 
need the love and nurturing of their mother.
    Please help me put an end to the nightmare that Sunil Jacob 
has created for my family. Please help my precious children and 
me. I do not want to know, and cannot imagine, a meaningful 
life without them. Please act not just on the benefit of two 
innocent children and their broken-hearted mother. Please think 
of all of the other children and parents caught in similar 
nightmarish situations due to the hostile-minded parents who 
abduct children to overseas nations.
    I am very thankful to Congressman Chris Smith and his staff 
for working so hard and passing the Sean and David Goldman 
International Child Abduction Prevention and Return Act of 
2014. I thank Congressman Chris Smith for being a champion for 
the noble cause of reuniting the children and their left-behind 
parents and for being an angel to our children and to us, the 
left-behind parents.
    The Goldman Act was signed into law by President Obama on 
August 8, 2014. Goldman Act instructs the State Department to 
take serious action when the case is pending for over a year, 
and my case has been pending for over 6 years, and I am waiting 
for the State Department to reunite me with my precious 
children. The State Department can also apply Section 201, 
which is high level diplomacy and extradition of my children on 
my case now, and I am hoping and trusting that they will do so 
without any further delay.
    I request the State Department and the Office of Children's 
Issues to take speedy action, and to please implement the law 
as soon as possible and put a smile back on the faces of our 
children and us, the left-behind parents.
    Thank you from the bottom of my heart for accepting my 
humble request during your otherwise pressing schedules. Thank 
you so much.
    [The prepared statement of Ms. Philips follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                         ----------                              

    Mr. Smith. Thank you so very, very much for your testimony 
and your example, which encourages all of us to do more.
    Mr. Morehouse, you are recognized.

  STATEMENT OF MR. JEFFERY MOREHOUSE, EXECUTIVE DIRECTOR, BAC 
            HOME (FATHER OF ABDUCTED CHILD TO JAPAN)

    Mr. Morehouse. Thank you to the chairman and the committee 
for inviting me here today. I will be summarizing my written 
testimony for you.
    There have been 400 cases of U.S. children kidnapped to 
Japan since 1994. The Japanese Government has returned zero 
children.
    On behalf of the 71 kidnapped children listed on the BAC 
Home Web site, who have been rendered voiceless by their 
abductors, for my fellow parents of internationally kidnapped 
children who feel marginalized by the lack of active, engaged, 
transparent assistance from the Office of Children's Issues in 
recovering their loved ones, I implore Congress to ensure that 
the Department of State finds Japan non-compliant and imposes 
sanctions under the Goldman Act.
    One year ago next week, at the very moment Japan acceded to 
the Hague Abduction Convention, parents joined together to 
hand-deliver with us 30 applications for access under Article 
21. This was supposed to be an efficient path to see our 
children again. Though we parents may have applied for access 
under Article 21, as we were encouraged to do so by the 
Department of State, our collective cases remain abduction 
cases.
    Over the past 12 months, the Office of Children's Issues 
time and again insisted that we must give Japan time. We must 
wait and see. Well, we have waited and we have seen. None of 
the BAC Home parents have received any access to their 
children. Japan's implementation of the Hague Abduction 
Convention is an abysmal failure. Sanctions under the Goldman 
Act will provide some of the necessary public pressure on Japan 
to create change in this ongoing human and family rights 
crisis.
    It is crucial that Members of Congress be made aware of the 
first Hague Article 21 access case to make it through the 
Japanese family court process. This case is typical of what 
parents are encountering in their attempts to gain access to 
their kidnapped children. Under Article 21, the central 
authorities are bound to promote peaceful enjoyment of access 
rights and fulfillment of any conditions to which the exercise 
of those rights may be subject.
    The central authorities shall take steps to remove, as far 
as possible, all obstacles to the exercise of such rights. Now, 
instead of removing obstacles, the Japanese Government has 
erected multiple barriers interfering with the exercise of 
parental rights. These actions are prejudicial and designed to 
prevent victimized parents from gaining access to his or her 
children.
    The actions by the court in this pioneer case include: One, 
a request by Henrik Teton for interim access to his children 
under the Hague, which was ignored by the court. Two, the judge 
walked out of the room when the father, who was representing 
himself, asked questions of the court. And, three, the father, 
who was denied the use of his own translator, was forced to use 
a court-appointed translator with no ability to ensure that the 
translations were accurate. Number four, the judge refused to 
provide his name; therefore, making accountability of his 
rulings impossible. And, five, the judge ruled that no 
observers, including Embassy officials, were allowed to witness 
the proceedings.
    In my written testimony, I will also outline what some of 
the other parents have faced in their failed attempts to gain 
access.
    Now, in consulting with Japanese lawyers, it has become 
very clear to BAC Home that Japan's implementation provides no 
reasonable, enforceable means for victimized parents to access 
or obtain the return of their children. They are simply 
violating the Hague Abduction Convention and non-compliant, as 
a country, under the Goldman Act.
    There are numerous clear-cut cases of abduction, such as 
Paul Toland and Paul Wong. Though they are both the only living 
parent, the grandparents in Japan are holding their daughters 
from them. There are cases like Randy Collins, whose ex-wife 
was ordered to surrender the child's passport to the court, and 
instead she kidnapped him.
    Douglass Berg's children were kidnapped from their habitual 
and legal residence in the United States in 2009 violating his 
parental rights to access. And Christopher Savoie's ex-wife 
violated the divorce decree, State, and Federal statutes, when 
she kidnapped their children.
    Now, in my own case, I was granted primary custody of my 
son in the State of Washington in May 2007. Three years later, 
in June 2010, I dropped my son Mochi off to begin a week-long 
visit with his mother. He was 6\1/2\ years old. This is where 
my endless nightmare began.
    Six days later, I received a phone call that no parent 
wants to receive. It was the police. My son and ex-wife had 
been reported missing. I knew immediately what had happened. 
She had succeeded in what she had intended on doing, which was 
kidnapping him to Japan. In that moment, my life was shattered. 
My days would become consumed with dealing with local law 
enforcement, the U.S. Department of State, Japanese consular 
officials, and anything I could think of to try and find my 
boy.
    Now, how could this happen to my child? I did everything I 
could think of to prevent this. There were even passport and 
travel restraints in the court order, which barred her from 
leaving the State of Washington with him. Well, I came to learn 
the hard way that restraints are only effective if somebody is 
willing to abide by them. For someone intending to commit 
kidnapping, restraints have true little power.
    When the Seattle Consulate of Japan denied my ex-wife's 
attempt to obtain a passport, she simply went to the Consulate 
in Portland, and they issued her one in violation of the 
Ministry of Foreign Affairs' passport issuance policy.
    Some people over the past several years have said to me, 
``Well, you know, at least you know where he is. He is safe 
with his mother.'' But he is not safe. He is at risk. She has 
willingly and intentionally kidnapped him to a foreign land 
with the intent of permanently alienating him from me and 
everyone he knows.
    Imagine, just for a minute, being a child and your mother 
steals you away to a foreign country, and tells you your father 
doesn't want you anymore or that he is dead. Your whole life is 
now built on a foundation of lies. This is not what a healthy 
parent does. This is child abuse.
    Every morning I wake up twice. The first time I have this 
feeling I have to rush out of bed and get my son ready for 
school, and I can hear his voice and he is saying, ``Daddy, can 
I have toast and honey for breakfast?'' And I have to get him 
ready for school. And then my heart skips a beat, and I wake up 
for real, and I realize he is still missing and that the 
nightmare continues.
    The last time I held his hand, the last time I heard my 
son's voice, was on Father's Day of 2010.
    Last year in my case I won a landmark ruling in Japan where 
the court acknowledged my U.S. custody order and recognized me 
as the sole custodial parent under Japanese law. My ex-wife has 
no legal custody rights there. They also cited her admission of 
committing illegal acts under Japanese law in order to abduct 
my son. However, they are still not telling me where he is. He 
is still being help captive.
    Private, back room diplomacy has failed. It has failed to 
return my son and any of the other kidnapped American children. 
Public statements by Secretary Kerry, Ambassador Kennedy, and 
President Obama, could have meaningful effect, but to date we 
have only heard silence.
    It has been Congress that has led the charge on this 
abduction crisis with Japan, and I urge Members of Congress to 
ensure that the Department of State finds Japan non-compliant 
and that sanctions are imposed under the Goldman Act. Without 
public consequences, there will be no incentive for Japan to 
change. It will remain a black hole for child abduction.
    Now is the time for Japan to demonstrate they are serious 
about changing course on this ongoing crisis of international 
parental child abduction. Next month, Prime Minister Abe will 
come visit Congress and address Congress here in Washington. In 
addition to non-compliance and sanctions, I am here to ask 
Congress to tell the Prime Minister that it is not acceptable 
to continue to hold ``Mochi'' Atomu Imoto Morehouse, or any of 
the 400 kidnapped American children, anymore.
    Thank you for your time today.
    [The prepared statement of Mr. Morehouse follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          ----------                              

    Mr. Smith. Mr. Morehouse, thank you very much for your very 
moving testimony.
    I would like to now recognize Mr. Davenport.

 STATEMENT OF MR. DEVON M. DAVENPORT (FATHER OF ABDUCTED CHILD 
                           TO BRAZIL)

    Mr. Davenport. Hello. Thank you for having me here today.
    In the words of David Goldman on February 27, 2014, at the 
U.S. Senate Committee on Foreign Relations Hearing on 
International Parental Child Abduction,

        ``My foundation has been assisting a father by the name 
        of Devon Davenport of North Carolina, whose daughter 
        Nadia was abducted to Brazil in 2009, just a few weeks 
        after her birth. Mr. Davenport has fought admirably to 
        bring Nadia home. In September 2010, a Federal court 
        first ordered her return to the United States. Since 
        then, the return order has been upheld by numerous 
        appeals courts and the legal case is effectively over, 
        yet Devon is still waiting, as I did, for Brazilian 
        courts to enforce their own return order and put Nadia 
        back on a plane to the United States. Our Government 
        should be demanding, not asking, that Nadia be 
        returned.''

    I am Devon Davenport, the 28-year-old father of Nadia Lynn, 
and I still happen to be waiting for justice concerning her 
illegal abduction to Brazil some 6 years ago.
    I believe that it has been made evident in the past via 
various testimonies from left-behind parents and politicians 
that the issue of international child abduction is a great 
concern. However, it is absurd that after the immense effort to 
pass Chris Smith's Goldman Act that we must convince the U.S. 
Department of State, the sole governmental department 
responsible for assisting left-behind parents, systematically 
navigate legally through the Hague Convention Treaty to 
effectively utilize the rhetoric, equipping them with necessary 
tools to increase resolutions for international abduction 
cases.
    The U.S. Department of State no longer lacks the necessary 
tools needed in order to optimize and create an efficiently 
robust pipeline for handling Hague cases and distributing 
pertinent information between left-behind parents and central 
authorities from opposing countries.
    Countless times throughout my 6-year legal battle, I have 
been the one to provide updates and ask follow-up questions in 
hopes of obtaining valuable information toward an actual 
resolution of my case. The Department of State is notorious for 
providing me with the exact same information I provide them 
with. Hardly do I ever obtain any new information, and I 
believe that derives from the fact that they are not proactive 
in their question for justice of behalf of left-behind parents.
    An example is today when you asked how many cases, how many 
returns. They don't even know this type of information. They 
will get it once you prompt them, but they should have come 
prepared with that type of information. They should know these 
numbers. This is what left-behind parents deal with on a daily 
basis, dealing with the Department of State.
    The inability and lack of foresight to initiate 
constructive yet progressive inquiries to the opposing central 
authority is not acceptable. Case officers working for the U.S. 
Department of State should not only be able to predict the 
questions and concerns of left-behind parents, but also take 
appropriate measures in obtaining the answers to those 
questions and concerns while providing feedback to those of us 
fighting the lengthy battle.
    The reason for this inability is the lack of empathy, 
initiative, and urgency; no longer the tools. Herein lies the 
issue. Until case workers at the Department of State are able 
to anticipate the next steps in a given Hague case based on 
years of internal evidential information from various left-
behind parents in each country, then there will be no 
progressive action taken by them to provide information that 
some parents never think to ask, but deserve to know, as we 
look to the Department of State as a source of information and 
mental solidarity.
    Since birth in August 2008, my daughter Nadia Lynn resided 
with her mother, Larissa Drummond, in Cary, North Carolina. Due 
to parental alienation and prior threats to leave the country 
with my daughter to Brazil, a court order was filed and 
established August 20, 2008, restricting the removal of my 
daughter outside of the State, as well as confiscation of my 
daughter's passport to prevent abduction.
    At the same time, a custody order was filed and signed on 
October 8, 2008, by District Court Judge Walczyk, and went into 
effect on October 14, 2008, notifying each parent that it is a 
felony to transport the minor child outside of the state. The 
court order also states that it shall remain into effect until 
replaced by another parenting agreement or court order 
pertaining to custody.
    According to the signed court-ordered visitation schedule 
between Larissa Drummond and I, October 14, 2008, our daughter 
Nadia Lynn was scheduled to have visitation at my residence on 
Mondays, Tuesdays, and Saturdays. On Saturday, February 7, 
2009, my daughter was not brought to my residence for 
visitation scheduled at 8 o'clock a.m.
    At 8:07, I immediately contacted Larissa asking where she 
was. After getting no response, I contacted her mother. I then 
called the Cary Police Department. Upon their arrival, I 
provided the court-ordered visitation, and the officer and I 
went to Larissa's residence and found the house empty.
    With knowledge of prior threats made by Larissa to leave 
the country with my daughter back to Brazil, we contacted the 
U.S. Department of State to inquire about a possible abduction 
and were informed that I would receive a call on Monday, 
February 9, 2009, from the abduction officer who handles cases 
to Brazil, who happened to be Ms. Daisy Cardiel at the time. 
Soon after, I received from NCMEC a protocol number for my 
daughter, as well as a kidnapping case number for my daughter.
    There was a court order calendared by Wake County 
Courthouse to have my name added to my daughter's birth 
certificate. On February 10, 2009, I filed to have an emergency 
order granting me sole legal and physical custody of my 
daughter Nadia, as well as immediate return of her back to her 
habitual residence in North Carolina, which Judge Walczyk 
signed on February 12, 2009.
    April 20, 2009, the Department of State emailed me saying, 
``The Brazilian Central Authority would like me to inform you 
that your case was sent to Interpol on 2009, April 2. 
Furthermore, despite the fact that the child has not been 
located, the Brazilian Central Authority sent the file to the 
Federal Attorney's Office in order to commence an analysis on 
your case.''
    April 19, 2009, I receive a message on the Bring Sean Home 
Foundation forum from a 21-year-old law student asking me about 
information on my daughter and the mother. I provided the last 
name, first name, and possible state that my daughter would be 
in. Eight days later he provides me with the address of my 
daughter in Brazil, while it had taken Interpol and the FBI, 
what, 4 months. They still hadn't found her.
    I provided this information to the U.S. Department of State 
May 6, 2009. It took them 3 months later to confirm the address 
that I provided them.
    April 14, 2010, I arrived in Brazil for the first instance 
hearing on the international abduction of my daughter Nadia 
Lynn. September 14, 2010, I received a favorable ruling, which 
issued the return of Nadia back to the United States. I was 
ordered to spend a 15-day transition period in Brazil before 
returning. During this transition period, the mother filed an 
appeal, ultimately suspending the return as well as the 
transition period between Nadia and I, on September 26, 2010.
    November 30, 2011, the TRF Federal Court of Brazil rejected 
the mother's appeal by a majority panel. She appealed again 
within the Federal Court. March 23, 2012, the Federal judge 
upheld the first instance court order for the return of Nadia 
back to the United States. The mother filed another appeal to 
the Superior and Supreme courts.
    May 21, 2012, Special Advisor for Children's Issues, 
Ambassador Susan Jacobs, spoke to the Brazilian Central 
Authority directly and requested that my case be expedited and 
expressed her concerns on the delays and appeals that my case 
has received. April 11, 2013, TRF President rejected the appeal 
filed by the mother before the STJ and STF. And I was told that 
the request for the enforcement of my daughter to return back 
to the United States will be filed on April 30. It was not.
    August 14, 2013, Ambassador Susan Jacobs and Scott Renner 
traveled to Brasilia, Brazil, to speak directly with proper 
personnel to have my case expedited and ruled on. However, I 
received no official report on this meeting. I have no clue 
what was discussed, with whom the discussion occurred, and what 
the outcome of said meeting was, although I was told that I 
would receive a formal detailed summary within 3 weeks. I was 
never sent that information.
    August 27, 2013, a hearing at the first instance court in 
Criciuma was scheduled in which the charge of the enforcement 
order would decide the logistics of the return. Instead, they 
postponed this, and the appeal was dismissed at the STJ Court 
in Brasilia, Brazil. September 6, 2013, the appeal was 
dismissed by the sitting judge at the STJ Court in Brasilia. 
Being that it was a monocrotic decision, the mother appealed 
again.
    September 27, 2013, the Brazilian Central Authority and OAG 
filed a motion on the first instance court for the temporary 
execution of the enforcement order. This was a request that the 
judge not wait until the appeals were decided upon. The judge 
was to formally respond to this motion with a decision.
    October 11, 2013, I was informed that my case would be 
heard on October 17. It wasn't. October 17, instead of ruling 
on the appeal, it was removed from the agenda.
    April 14, 2013, the STJ and STF appeals to the return order 
were rejected by the TRF president and were yet again appealed 
only once again to be dismissed by the STJ on September 10, 
2013, ultimately allowing Nadia to return to the United States 
once and for all following a 15-day transition period in Brazil 
set to occur in 2014.
    June 17, 2014, I traveled to Brazil to complete the 15-day 
transition period with my daughter, with the expectation to 
return home once and for all to the United States. Upon arrival 
to Brazil, I was immediately served with another appeal stating 
the transition period and the return order had been suspended 
by a last-minute injunction filed by the taking parent. I was 
able to have the suspension of the transition period 
overturned. However, the courts are still pending a ruling on 
the suspension of the return order at the STJ.
    December 15, 2014, Minister Rosa Weber of the STF Court 
ruled in a monocrotic decision to dismiss the special appeal. 
January 23, 2015, the taking parent filed a motion for 
clarification on the dismissal of the special appeal, a well-
known delay tactic. January 28, 2015, I called the STF and 
asked that Minister Rosa Weber decide on this case as quickly 
as possible, and to note the constant delay tactics being used 
by the taking parent.
    On February 11, 2015, I received an email from the 
Department of State stating that the ministers at the STF 
converted the mother's declaratory motion to an agravo 
regimental. According to the OAG, this is a good sign, as it 
shows a tactic from the court to accelerate the process.
    March 4, 2015, the special appeal of the STF was finally 
rejected. However, the taking parent continues to use delay 
tactics in order to prevent the inevitable return for my 
daughter back to the United States by filing yet another motion 
for clarification.
    I am here today not to ask, but to demand, that my daughter 
Nadia be returned immediately to the United States without 
delay. This case has literally taken its legal course and 
justice is now overdue.
    I want to thank you for your time, and I hope that my 
daughter Nadia will soon be returned to the United States and 
her habitual residence, once and for all.
    Thank you.
    [The prepared statement of Mr. Davenport follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        ----------                              

    Mr. Smith. Mr. Davenport, thank you very much, and thank 
you for going through the process that you have followed. Like 
our other witnesses and so many left-behind parents, you have 
done it all by the book.
    Mr. Davenport. Yes.
    Mr. Smith. And justice delayed is justice denied. Again, 
the three countries--and there are many others, but especially 
Brazil, Japan, and India--absolutely fit the criteria of non-
compliant countries. And if sanctions are not imposed, and 
significant sanctions at that, again, they will take view of 
that, take the view of that that we are not serious about this 
child abuse, as Mr. Morehouse so aptly put it, that is being 
committed against your daughter and all of the other children.
    I would like to now recognize Mr. Sawyer. The floor is 
yours.

 STATEMENT OF MR. SCOTT SAWYER, VICE PRESIDENT OF OPERATIONS, 
       GLOBAL FUTURE (FATHER OF ABDUCTED CHILD TO JAPAN)

    Mr. Sawyer. Thank you, Mr. Chairman, and Ranking Member 
Bass, for your ongoing support in this matter. I ask the 
chairman's consent to submit my entire written testimony for 
the record and submit additional parents' testimony as well.
    Mr. Smith. Without objection, so ordered. And it goes for 
the others. Anything you want to affix to your testimony, 
please feel free to do it.
    Mr. Sawyer. Thank you. Although his mother and father were 
divorced, my son Wayne benefitted from the Los Angeles Superior 
Court's orders for equal time with both parents. I dropped him 
off to visit his mother on Sunday, December 14, 2008, expecting 
to see him again on Thursday, and then on the weekend bring him 
over to the 26th Street Park in Santa Monica where we would 
feed the ducks, which was something he enjoyed to do quite a 
bit.
    But he was kidnapped from Los Angeles and taken to Japan 
the next day at the age of 2 years, 4 months old. I have not 
been able to see him or speak with him since, and intermittent 
communications with his mother have not produced any change in 
that status.
    There are other aggravating factors in Wayne's case, 
including repeated deceptions by Japanese diplomats in the 
United States about the false passport that Wayne traveled 
under, along with his mother's on-camera confession to ABC News 
in February 2011, in which she chuckled about how easy it was 
to defeat the passport surrender orders of the Los Angeles 
Superior Court, deceive the U.S. authorities, and to get away 
to Japan.
    The government response to Wayne's kidnapping represents a 
perfect storm of failure. The L.A. Superior Court's custody, 
travel ban, and passport surrender orders, designed to prevent 
his kidnapping, were defeated easily by organized criminal 
activity. The court cannot, in reality, enforce its orders 
outside of the walls of the court. The DHS, TSA, and Customs 
and Border Protection do not have any serious system in place 
to interdict such kidnappings at the airports.
    The State Department has been discussing cases like Wayne's 
for over 20 years with Japan with no results, even with all of 
the pressure and attention that this committee has generated 
over the years, the last several years in particular. There is, 
I believe, an obvious institutional drift regarding the roles 
of the Justice Department and State Department in international 
child kidnappings. And perpetrators exploit the absence of an 
integrated U.S. Government response with little fear of facing 
justice.
    Let us, for example, contrast the governmental response to 
domestic interstate kidnappings. There are Amber Alerts, 
interstate police mobilizations, special FBI teams, systematic 
investigation, arrest, and leveraging of accomplices, 
apprehension of perpetrators, and frequent returns of the 
children. It is an integrated response and there are 
prosecutions and deterrence.
    People would rightly be outraged if the states handled 
domestic kidnappings like the Federal Government and the Hague 
handles the international ones, for good reason. The law says 
that children like Wayne are victims of crime, no different 
than children kidnapped from California to Texas. On the State 
level, the Uniform Child Custody Jurisdiction and Enforcement 
Act says that international child kidnappings are to be treated 
the same as domestic ones across State borders.
    The legislative notes in the 1993 International Parental 
Kidnapping Crime Act state that the Justice Department should 
have primacy in international child kidnappings, with the 
Department of State in a subservient role.
    Now, since ICAPRA passed, the defined roles have gradually 
reversed to the point where the State Department, which is not 
a law enforcement agency, has taken the lead, and the Justice 
Department has filed fewer and fewer IPCA cases. A 2008 FBI 
Inspector General report found that the IPCA cases declined by 
half from 2000 through 2007.
    The FBI has the same affirmative duty under the law to 
investigate and prosecute international child kidnappings, just 
as they do domestic child kidnappings. But because State, as a 
practice, does not file extradition warrants for IPCA cases, 
FBI agents are disincentivized from working up the cases.
    Now, State has received this quietly surrendered authority 
over the crimes. In addition to that, 11 sections of the 
International Child Abduction Remedies Act, which was the U.S. 
Hague implementation law, has been removed from the U.S. Code 
and put under the State Department. We should also consider 
that the Hague's best practices guide states that when there is 
a new contracting state, the first and primary choice for the 
Central Authority should be the Ministry of Justice, or its 
equivalent.
    This opportunity was apparently missed when the United 
States acceded to the Hague and then named the State Department 
as its Central Authority. I believe this might have made a 
difference in the criminal kidnapping cases had the Justice 
Department, in the first place, been there.
    There is also the issue of conflict of interest. And to 
paraphrase attorney Patricia Apy in a previous hearing, the 
client of the State Department is not the American citizen 
crime victim in the street. The client of the State Department 
is the U.S. Government and its foreign policy objectives.
    I suggest that this chamber build on its expertise and its 
formidable work, and that future legislative goals of this 
chamber will be enhanced if it can fuse the successful 
approaches of the domestic kidnapping law enforcement model, 
and the root principles of UCCJEA, IPCA, and Hague best 
practices, into a rapid response whenever a criminal 
international child kidnapping takes place. In kidnapping 
crimes against children, I believe that the long arm of the law 
has produced more consistent results than the long 
conversations of diplomats.
    In 2009, I became an officer of Global Future. In 2010, we 
helped bring the two Mendoza children home to New Jersey from 
South Korea. New Jersey law enforcement took the lead, with a 
very significant assist from the State Department. And, in 
2011, we helped bring Karina Garcia home to Wisconsin from 
Japan. She was the first kidnapped child ever returned from 
Japan through the criminal law enforcement process. Since then, 
we have helped three other children return from Asia, Europe, 
and South America.
    Of course, Japan's overdue accession to the Hague in April 
2014 was not retroactive, and return applications could not be 
filed in cases like Wayne's. Since then, parents have been 
asked to then file access cases in Japan's new Hague courts. 
And, for me, I find this particularly on the offensive side. 
Wayne would not be in Japan in the first place were it not for 
criminal acts committed on U.S. soil and from the mischief of a 
foreign government.
    The State Department has not demonstrated an inclination 
over the years to serve law enforcement warrants or extradition 
requests. By accepting this scenario, the U.S. Government has 
converted crimes against children into civil procedures, and, 
in effect, conceded the criminal acts to the kidnappers.
    The Assistant Secretary of State at the time, Kurt 
Campbell, said a few years ago that talk of extradition made 
Japan nervous. Then by all means, let us start talking about 
extradition again, and have law enforcement and the State 
Department working lock-step, in tandem, side by side.
    Wayne is the victim of a crime with ongoing constitutional 
rights to due process in the justice system, and all 
departments of the U.S. Government should treat him as such. 
The Constitution entitles him to equal protection under the 
law. He deserves justice like any other crime victim. He is not 
diplomatic chattel to be traded in exchange for unrelated 
geopolitical considerations.
    The President is also the nation's top law enforcement 
officer, and I would like to someday hear that all U.S. 
Government departments are committed to enforcing the laws as a 
strategy, as one of the tools in the box, to return kidnapped 
children.
    In conclusion, I hope that the committee will take up the 
suggestion a Congressman made in one of the previous hearings 
of this committee, that the Foreign Affairs and Judiciary 
Committees should have a joint ``no holds barred'' discussion 
and develop an integrated, sustained, and timely way to respond 
to international child kidnapping crimes.
    I believe the expertise and knowledge of this committee, 
and of the Judiciary Committee, is vast, separately and 
together. I have every confidence that the two committees 
working together will produce a plan of action that will build 
on your formidable body of work in this area and leave a legacy 
of fewer and fewer kidnapped children for generations to come.
    I would add that, of course, we have heard a lot about the 
parents suffering on this, but I would always remind people 
that no one loses more from these crimes than the children. 
Speaking for myself, I had a childhood. I have fond memories of 
both parents. My son does not have that, because a crime was 
committed against him and so far has gone unanswered.
    Again, I implore both committees to work together, and I 
look forward to great success from both to come.
    Thank you.
    [The prepared statement of Mr. Sawyer follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony.
    Ms. Bass.
    Ms. Bass. Yes. I am, unfortunately, going to have to leave, 
but I am dying to ask you a question, because, you know, after 
listening to the testimony of the three individuals and hearing 
your story, I wanted to know if you could please explain how 
law enforcement could do that. I mean, today, what--you know 
what I mean? You described a couple of cases, but in your case 
what would happen, what would law enforcement do? In Santa 
Monica, they would go over to Japan? I don't----
    Mr. Sawyer. Well, it was something that some of us parents 
talked at great length with Kurt Campbell about when he was the 
Assistant Secretary of State. The problem is that the FBI has 
been disincentivized from working up the cases.
    And what I have heard from the FBI is, if they are going to 
work up a case, they want to see it end with an extradition 
warrant. And if they are going to prepare the warrant and the 
State Department won't serve it, then why go work up the 
warrant? And then it is--and the parents were----
    Ms. Bass. Well, why does the State Department have to--
because you described--I understand--I think I understand what 
you are saying in the sense that if we go along the track of 
the State Department, then that disincentivizes. You are 
suggesting that we go along the track of the DOJ, and so why 
would they be disincentivized?
    Mr. Sawyer. Well, that is it. They work up the case. The 
FBI agents are busy in these child abductions. They have got 
domestic ones. They have got international ones. And then on 
the state-to-state abductions, they have vast success with 
getting extradition warrants from another State.
    They prepare a foreign extradition warrant, and the State 
Department won't serve them in Japan, and----
    Ms. Bass. So what can we go to change--now, you proposed a 
hearing, but beyond a hearing what are you suggesting that we 
do to remedy the situation, to send it on that other track?
    Mr. Sawyer. I think that, then, your committee could bring 
its influence to bear and get together with the Judiciary 
Committee. It is important to communicate that this drift that 
has happened has to be reconciled and brought back under the 
original intent of the IPCA laws and the UCCJEA. The United 
States has continuing jurisdiction in these cases, and our 
children's rights as crime victims do not change because they 
have been taken overseas.
    It is then with the committees working together and 
basically reminding each other that there is an affirmative 
duty for law enforcement to execute its duty, and then with 
those warrants, it will be what Kurt Campbell had said; talk of 
that made Japanese nervous.
    Executing a warrant that is delivery ready, then gets the 
attention of the foreign government to where you can bargain. 
And the President is also the nation's top law enforcement 
officer. He says, ``I have got extradition warrants out for''--

    Ms. Bass. So new legislation is not necessarily needed; it 
is just a new focus?
    Mr. Sawyer. Yes. I think better working together, the 
players, the players on the field work together as a team, and 
we will get better results.
    Ms. Bass. Thank you. Appreciate it.
    Mr. Smith. Thank you very much, Ms. Bass.
    Let me just conclude, just a couple of questions. Ms. 
Philips, first of all, Eamon Blanchard is with you from the 
Plainsboro Police Department. I just would like to recognize 
him and thank him for the wonderful police work that his office 
and his fellow officers, he himself did, especially at your 
time of most vulnerability when everything had been ripped off. 
And not only had you lost your children, you had a major act of 
theft occur against you. So I just want to acknowledge him and 
thank him.
    And let me just ask you, you did say that when you 
contacted the American Consulate in India, one of the 
consulates, they said there was little they could do for you 
without an order giving you custody of the children, which you 
subsequently did get. Was there a change of effort on their 
part, an earnestness of, you know, a vigorous effort to 
facilitate a resolution to your case after that?
    Ms. Philips. Thank you, Mr. Smith. I did submit the custody 
order to the U.S. Embassy in India, and though they were very 
touched about my case there was nothing they proceeded to do to 
help me get my children back. And I have also visited the 
Indian Consulate in New York and spoken to the Indian Consulate 
in Washington, DC, and they advised me go to the U.S. Embassy 
and seek help from the U.S. Embassy in Chennai to get your 
children back, because all of you are American citizens and we 
can't do anything about it. I did forward that letter to the 
U.S. Embassy, too, but I still haven't got my children back.
    Mr. Smith. I just want to remind--and I do hope the press 
captures this, if they include it in their stories, but the 
idea that there are 781 resolved cases. It does convey a false 
notion of resolved in terms of bringing children home. The 
number that--with the update from Ambassador Jacobs was that 
there were 261, so that means two-thirds of the cases have not 
resulted in a child being returned home. And we know with Japan 
it is zero; zero for 400.
    Let me just ask you, all three of the countries that you 
have had your children abducted to, cry out as an engraved 
invitation for sanctions to be imposed after the report, which 
should be received by Congress or issued no later than April 30 
pursuant to the law, to the Goldman Act.
    What would be your reaction if the countries, like Japan, 
like Brazil, like India, were not so designated and significant 
sanctions not imposed?
    Mr. Morehouse. Mr. Congressman, Congressman Smith, I think 
parents in our organization would be absolutely outraged if 
Japan is not found non-compliant. There has been no progress 
with the cases submitted for access over the past year. There 
have been significant roadblocks. Even today, when Ambassador 
Jacobs spoke about a return case where she suggested that it 
was imminent, my sources in the case are telling me that is in 
appeals. And we have seen appeals in Japan bogged down for a 
significant amount of time. So until cases are returned, Japan 
absolutely must be found non-compliant.
    Mr. Smith. Yes, Mr. Davenport?
    Mr. Davenport. As far as Brazil is concerned, and I know 
you have a lot of experience with Brazil in helping David 
Goldman, as far as I know no other children have really been 
returned successfully via the Hague. And we know what it took 
for Sean to return. And when you think about that effort and 
the immense amount of pressure that was necessary to be placed 
on Brazil for Sean to return, whose mother died, you know, it 
is crazy to assume that they would return a child whose mother 
is still alive.
    Without the same or more pressure from Congress and the 
United States, I believe that my case--for example, I have gone 
through the entire process, I mean, with every appeal that can 
be filed has been filed. It is essentially over, and my 
daughter is still over there. There is no enforcement.
    So you have a situation where you can win a case, and I am 
pretty sure the Department of State will call that a resolution 
or a soft case. But the actual child has not literally been 
returned to the habitual residence. And that is the essential 
goal of the Hague Convention Treaty, to actually have that 
child returned.
    And so until children are coming home, and it is still 
boggles me that they don't know a number, or know no numbers. 
It is all ``I will get back to you.'' I think that goes to show 
that there really probably aren't any cases where you can 
literally say a child has traveled from the country of 
abduction back to the country of origin.
    Mr. Sawyer. If I may, Congressman, sanctions is a fine 
idea. I always believed that hitting Japan in the wallet is 
going to ultimately help us get further. But it also brings up 
another opportunity for this committee to work with others. 
There are a lot of outstanding and unresolved issues with Japan 
over non-tariff trade barriers, and the beef, apples, and rice 
industries are not too happy with Japan's policies in those 
areas, as are auto makers and electronics makers.
    And after the sanctions, coordinating with other committees 
to focus on trade policy will be yet another lever to get 
Japan's attention.
    Ms. Philips. I hope India will treat the child abduction 
cases as a criminal case and not a civil case. I wish the U.S. 
Government could educate the Indian authority and the officials 
there to have a speedy return of the children. And if they are 
having a case to have it held quickly, because, as you said, 
justice delayed is justice denied. And my last hearing was in 
April 2013, and I am still waiting for the Government of India 
to help me.
    Mr. Smith. One of the questions or a series of questions I 
posed in July 28, 2011, to Ambassador Susan Jacobs was about 
the closure of cases, because always have had trouble with 
clarity in the numbers. Time and time again, I remember when we 
had meetings with David Goldman and Ambassador Jacobs regarding 
Brazil. We got different numbers, always different numbers, and 
it was hard to say, ``What is the number? How many children?'' 
And hopefully the report will be very clear on the numbers 
issue.
    But I think it needs to be underscored, and for the record 
I will put with this answer from the Office of Children's 
Issues into the record, that closure of cases follow when a 
child turns 16 in a Hague case. That has certainly not been any 
positive resolution. It just means the child aged out, and, as 
we all know, that is what many of the abducting parents do 
through their endless appeals like you are going through, Mr. 
Davenport, and all of you.
    The child turns 18 in a non-Hague case, the child is 
returned to the country of habitual residence, that would be a 
positive outcome for sure. But as number 3 on the list, maybe 
there is no reason for the juxtaposition, but it is number 3.
    The left-behind parent notifies the Office of Children's 
Issues that assistance is no longer required. The child or the 
left-behind parent is deceased. After multiple attempts, the 
Office of Children's Issues is unable to locate or communicate 
with the left-behind parent in order to obtain updated 
information or confirm that our assistance is still required.
    You know, so there--you know, cases drop off the table 
because, again, a child turns 16 and ages out. When it is 
presented in an aggregated form, it would be very easy to have 
a takeaway, oh, the cases are going down, or these have been 
resolved successfully, when that is absolutely not the case.
    Let me also just say that I think, again, all three of your 
cases, absolutely your individual cases, not the larger numbers 
which you all represent, Section 201 could be applied to every 
one of them, and ought to be. I mean, this is a serious 
attempt, the Goldman Act, to hold countries to account.
    Unfortunately, we have four votes pending. I am going to 
have to end the hearing very shortly. Your comments, Mr. 
Morehouse, about Henrik Teton's case, that the judge refused to 
provide his name. I have had 15 hearings on human rights in 
Northern Ireland, on policing and on Diplock courts. I can't 
think of another instance in a country, particularly Japan, a 
mature democracy, where a judge will not utter his name in his 
own courtroom.
    I mean, in the Diplock courts, they used to shroud the 
judges so nobody knew who it was that was deciding a case. Here 
in Japan, Mr. Teton had to put up with the five points you 
made, which were devastating, one of which was the judge was 
refused to provide his name. That is outrageous. That is almost 
laughable, but it is certainly not funny.
    So if any of you would like to provide any further comment 
before we have to close down. I do want to just acknowledge, 
first of all, that David Goldman is here. David Goldman, as I 
said at my opening, has been a tenacious, like you, father, 
mother, who cares so much about his son or sons or daughters 
that he fought and, in his case thankfully, yielded fruit, and 
Sean is doing extraordinarily well.
    I meet with him all the time, as well as with David. He and 
Mark DeAngelis are both here, and Mark has spent so much time 
volunteering and doing work for the Bring Sean Home Foundation. 
And, Mr. Davenport, as you know, they have been helpful to you, 
so I want to thank them.
    Patricia Apy, who is not here, but a lawyer who helped us 
with many of the finite details of the bill, particularly as 
related to DOD, and she had extraordinary expertise to bring to 
bear on that.
    David Feimster, and Gail, his wife, who were successful. 
Sometimes a Foreign Service Officer is dogged, and that was the 
case in Tunisia. And I just want to acknowledge that we are 
grateful for the work that their Foreign Service Officer did, 
Mr. Sweeney, Michael Sweeney, I did talk to him on the phone a 
few times and he was absolutely locked onto the case, and those 
kids came home.
    So I want to thank all of you for--oh, let me conclude, and 
then you all will have the final word. At one of our hearings 
in 2009, Bernie Aronson, the Assistant Secretary of State for 
Inter-American Affairs between 1989 and 1993 provided some very 
powerful testimony. But one of his points which I thought was 
just so telling, here is a man, Assistant Secretary, sat in 
that very important influential position with U.S. Department 
of State and he said, let me quote in pertinent part, ``Let me 
be blunt. A diplomatic request for which there are no 
consequences for refusal is just a sophisticated version of 
begging. And there are no consequences today for Brazil''--and, 
I would add, for these other countries as well--my own 
addition--``or any other nation which refuses to return 
American children.''
    Those words are no less true today, but now we have the 
Goldman Act where there can be, and must be, significant 
consequences for refusal. And to end the sophisticated version, 
as Bernie Aronson put it so eloquently, begging.
    Final comments, very briefly if you could, and then the 
hearing will adjourn.
    Bindu? If you would like. If you don't, that is fine.
    Ms. Philips. Yes. I would like to thank you so much for 
helping us. And I would like to request the Indian Government 
to please help us get reunited with our children, and to 
understand our pain, and to understand that the little and 
helpless children have no choice but to listen to the abductive 
parent, because that is the only family they know and they 
can't do anything against the abductive parent, so to please 
help us. And the same with all the countries where the children 
have been taken.
    Mr. Smith. Thank you, Bindu.
    Ms. Philips. Thank you.
    Mr. Smith. Mr. Morehouse?
    Mr. Morehouse. Yes. I would like to just reiterate for the 
committee that although we have applied for access, our cases 
do remain abduction cases. There have been no children 
returned. And until they are returned, they are still 
kidnapped.
    Mr. Morehouse. Thank you.
    Mr. Davenport.
    Mr. Davenport. I would just like to say that sanctions are 
absolutely necessary, especially for countries that are non-
compliant. And the risk of diplomacy is definitely necessary to 
apply that to these countries in order to bring the children 
back.
    One instance will set an example, and maybe threats from 
there on out will be enough. But you have to make good on a 
sanction, at least one time, at least bring a child home. Sean 
Goldman is the only one I know of.
    Thanks.
    Mr. Smith. Thank you, Mr. Davenport.
    Mr. Sawyer.
    Mr. Sawyer. I remember Mr. Aronson's testimony quite well, 
too. That was really outstanding.
    I would say, speaking of consequences, sanctions are 
terrific. I would say with sanctions and with the coordination 
with law enforcement serving extradition warrants, those two 
things together are mutually supportive of each other. You will 
get more bang out of whatever sanctions diplomatically, by 
enforcing extradition warrants, and vice versa. I think it is a 
really terrific idea. And putting those two together will 
really get Japan's attention.
    And as far as extradition warrants, we saw that legal 
extradition process work in the Karina Garcia case in 
Milwaukee, and that is a model to build on. And I look forward 
to those two departments cooperating.
    Thank you.
    Mr. Smith. Thank you. This is the first in a series of 
hearings, so I want to thank you for your extraordinary 
testimony, love for your children, and we will never quit in 
trying to bring your children home.
    The hearing is adjourned.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]

                            
                                  

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
